<html>
<title> - THE STATE AND FEDERAL RESPONSE TO STORM DAMAGE AND EROSION IN ALASKA'S COASTAL VILLAGES</title>
<body><pre>[Senate Hearing 110-486]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-486

THE STATE AND FEDERAL RESPONSE TO STORM DAMAGE AND EROSION IN ALASKA'S 
                            COASTAL VILLAGES

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2007

                               __________

                   FIELD HEARING IN ANCHORAGE, ALASKA

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs







                     U.S. GOVERNMENT PRINTING OFFICE

38-848 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              PETE V. DOMENICI, New Mexico

                     Donny Williams, Staff Director
                 Aprille Raabe, Minority Staff Director
                        Amanda Fox, Chief Clerk























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Landrieu.............................................     1
    Senator Stevens..............................................     1

                               WITNESSES
                       Tuesday, October 11, 2007

Brigadier General John W. Peabody, Commander and Division 
  Engineer, Pacific Ocean Division, U.S. Army Corps of Engineers.     3
John W. Madden, Director, Division of Homeland Security and 
  Emergency Management, Department of Military and Veterans 
  Affairs of the State of Alaska.................................     5
Susan K. Reinertson, Regional Administrator, FEMA Region X, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security..............................................     7
Colleen E. Swan, Tribal Adminstrator, Native Village of Kivalina, 
  Alaska.........................................................    25
Stanley Tom, Tribal Administrator of the Newtok Traditional 
  Council, Native Village of Newtok, Alaska......................    29
Tony A. Weyiouanna, Sr., Kawerak Transportation Planner and 
  Technical Staff Assistant to the Shishmaref Erosion and 
  Relocation Coalition, Shishmaref, Alaska.......................    31
Steve Ivanoff, Village Transportation Planner, Unalakleet, Alaska    33

                     Alphabetical List of Witnesses

Ivanoff, Steve:
    Testimony....................................................    33
    Prepared statement...........................................   135
Madden, John W.:
    Testimony....................................................     5
    Prepared statement...........................................    50
Peabody, Brigadier General John W.:
    Testimony....................................................     3
    Prepared statement...........................................    45
Reinertson, Susan K.:
    Testimony....................................................     7
    Prepared statement...........................................    55
Swan, Colleen E.:
    Testimony....................................................    25
    Prepared statement...........................................    62
Tom, Stanley:
    Testimony....................................................    29
    Prepared statement with attachments..........................    68
Weyiouanna, Tony A., Sr.:
    Testimony....................................................    31
    Prepared statement with attachments..........................    86






















 
THE STATE AND FEDERAL RESPONSE TO STORM DAMAGE AND EROSION IN ALASKA'S 
                            COASTAL VILLAGES

                              ----------                              


                       TUESDAY, OCTOBER 11, 2007

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                  Anchorage, Alaska
    The Subcommittee met, pursuant to notice, at 9 a.m., in 
Z.J. Loussac Public Library, Anchorage, Alaska, Hon. Mary 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senators Landrieu and Stevens.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. I would like to call the Subcommittee on 
Disaster Recovery to order. I thank our panelists for being 
available and thank all of you for your interest and work on 
this important subject.
    I am going to turn the gavel over to Senator Stevens, who 
needs no introduction, of course, here in Anchorage, Alaska. He 
is not only a giant among Senators, a veteran, and a hero, but 
a tireless advocate for the interest of the citizens of this 
State.
    I have been pleased to work with him, to battle with him on 
behalf of the citizens throughout all parts of Alaska. And it 
is a great privilege for me, really, to be with him in his home 
State.
    He has stood by the side of the people of New Orleans and 
Louisiana as we tried to rebuild out of the rubble of two of 
the worst storms to ever hit the continental United States, 
Hurricanes Katrina and Rita, which decimated large swaths of 
the Gulf Coast States just 2 years ago.
    So again, it is a pleasure for me to be here. We had a 
remarkable visit yesterday and I am looking forward to the 
testimony today. At this time, I will turn the gavel and 
microphone over to Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens [presiding]. Thank you, very much, Senator 
Landrieu. You are very generous. I am delighted that you have 
scheduled this hearing.
    Yesterday I attended a portion of the hearing of the State 
legislature here on some of the State functions regarding the 
disaster areas that we are concerned with here this morning. 
And for the interest of everybody, we did go to Shishmaref 
yesterday and had a very short but meaningful visit there. I am 
delighted that Senator Landrieu was willing to go there to see 
the devastation that has been caused along our shore.
    It is an important thing for us to try and deal with this 
now. I want to emphasize, of course, that I am sure Alaskans 
know that no State is more affected by global climate change 
than ours. We have rising temperatures. The permafrost is 
melting. The trees are growing further up north. The sea ice is 
melting. And the storms, in particular, have increased in their 
severity and their number.
    I hope that we are going to be able to hear today some of 
the concepts that are involved in Federal responsibilities with 
regard to these villages.
    As you all know, in 2003, at our request, the GAO examined 
and produced a report concerning the flooding and erosion of 
Alaskan Native villages. They found that 184 of the 213 at that 
time, 86 percent of the villages were affected. Shishmaref, 
Kivalina, and Newtok were those who had suffered the worst.
    We are in the process still of dealing with the Federal a 
gencies, particularly those who are here today, to determine 
what can be done on the Federal level to deal with these 
villages and the results of the storms so far. And really, we 
went yesterday, to see how effective some of the steps we have 
taken to try and protect the villages have been. And clearly, 
we have to find a way to work together if we are going to solve 
this problem.
    So I am delighted, Senator, that you are willing to do 
this, make this trip, to listen to this, and conduct this 
hearing. It is a most important thing for us, I think, to 
pursue.
    I have been to New Orleans 2 days after the Hurricanes 
Katrina and Rita disasters. I served in World War II and saw a 
lot of devastation, but I have never seen devastation in the 
United States like I saw there. At least 20 square miles of 
homes were totally flattened. We had a real emergency and I do 
believe that Senator Landrieu and her colleagues, moved forward 
to try and get the massive efforts of the Federal Government 
coordinated and effective.
    We have a similar situation, only it is spread along the 
coastline, half of the coastline of the United States. It is 
more difficult to deal with. But I know that the experience 
that Senator Landrieu has had with regard to that major 
disaster is going to help us in terms of trying to deal with 
those that we are facing now and may face in the future.
    So let me, if I can, at your suggestion, introduce to you 
the people who are going to testify today.
    First, we are going to hear from Brigadier General John 
Peabody, who is the Commander and the Division Engineer for the 
Pacific Ocean Division of the Corps of Engineers. He is 
responsible for engineering design, construction, and real 
estate management of all of the military establishments in the 
Pacific Region, as well as the Corps of Engineers water 
resource development and regulatory programs for Alaska, 
Hawaii, American Samoa, Guam, and Northern Marianas. He has a 
vast area, so we are happy to have you with us today.
    Is the time limit 7 minutes for statements? We would like 
to see you keep your statements as short of possible, so we can 
go into some questions. The Chairman says 5 minutes.
    So General, let's hear from you first.

 STATEMENT OF BRIGADIER GENERAL JOHN W. PEABODY,\1\ COMMANDER 
AND DIVISION ENGINEER, PACIFIC OCEAN DIVISION, U.S. ARMY CORPS 
                          OF ENGINEERS

    General Peabody. OK, sir. Thank you, very much.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Peabody appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Madam Chairman, Senator Stevens, thank you for the 
opportunity to appear before you today to discuss coastal storm 
damage and related issues in Alaska.
    I am General John Peabody, Commander of the Corps of 
Engineers Pacific Ocean Division, and I will provide a brief 
overview of the Pacific Ocean Division, review our Corps of 
Engineers' Authorities and programs, and highlight some of the 
challenges regarding coastal erosion affecting Alaskan 
communities.
    The Pacific Ocean Division is headquartered in Honolulu, 
Hawaii. We have four district offices in Hawaii, Alaska, Japan, 
and South Korea. All of our districts have important military 
construction missions. In addition, the Honolulu and Alaska 
districts have a civil works mission that provides for water 
resources development and restoration, primarily in the areas 
of commercial navigation, flood and coastal storm damage 
reduction risks, and ecosystem restoration.
    It is through our Alaska District civil works program that 
we are involved in addressing erosion problems that affect 
Alaskan communities.
    The Corps of Engineers has several civil works authorities 
to address flooding and erosion problems. They include specific 
Congressional authorizations, the Continuing Authorities 
Program, the Planning Assistance to States Program, the Tribal 
Partnership Program, the Flood Control and Coastal Emergencies 
Authority, and Alaska-specific authorizations such as Section 
117 of Public Law 108-447 of the Fiscal Year 2005 Consolidated 
Appropriations Act. This relates to Alaska flood, erosion, and 
ice damage. Each of these authorities has different 
implementing rules and limitations.
    In addressing erosion problems, the Corps works closely 
with local, State, Federal, tribal, and private interests to 
understand and incorporate the concerns represented by these 
various stakeholders. The Corps weighs the concerns, balances 
the needs, and examines the risks, costs and benefits to 
determine Federal interest and to make technically, 
environmentally, socially, and economically sound risk-informed 
decisions.
    I would like to highlight a few of the Alaska-specific 
coastal erosion authorities.
    A recent authority that has been useful in addressing 
Alaska coastal erosion problems is Section 117 of the Fiscal 
Year 2005 Appropriations Act, which authorizes the Secretary of 
the Army to ``carry out, at full Federal expense, structural 
and non-structural projects for storm damage prevention and 
reduction, coastal erosion, and ice and glacial damage in 
Alaska, including relocation of affected communities and 
construction of replacement facilities.''
    The Corps of Engineers has demonstrated some success with 
the Section 117 authority as implemented under the Alaska 
Coastal Erosion program. In June 2007, with funding provided by 
Congress, the Alaska District awarded a $6.5 million 
construction contract to build approximately 625 linear feet of 
rock revetment to protect infrastructure at Shishmaref. The 
interim erosion protection at Shishmaref has an estimated 
project life of approximately 15 years, which will allow the 
community sufficient time to develop and implement alternative 
plans. An additional 2,500 feet at an estimated cost of $25 
million is required to complete the interim protection for the 
entire community.
    Additionally, the Alaska District executed a Project 
Cooperation Agreement with the City of Unalakleet in January 
2007 for erosion protection, subject to the availability of 
funds. Finally, the Alaksa District is also currently 
negotiating a Project Cooperation Agreement with the city of 
Kivalina for erosion protection.
    In addition, under the Alaska Tribal Partnership Program, 
the Alaska District is preparing the Alaska Baseline Erosion 
Study. This will provide a systems approach for coordinating, 
planning, and providing an overall assessment to help 
prioritize shoreline erosion management efforts in Alaska. To 
date, the study has identified 165 communities that are 
experiencing erosion problems. The Alaska District has also 
initiated the Alaska Erosion Data Collection study under this 
program.
    As noted in the June 2004 General Account Office report on 
Alaska Native villages affected by flooding and erosion, it is 
often difficult for the majority of Alaska's small and remote 
communities to finance and meet the multiple criteria required 
for Federal participation in solutions. The remoteness of many 
of the areas, severe weather conditions, and the subsistence 
economies of the communities are major contributing factors to 
this limitation.
    Perhaps the biggest challenges are the costs and risks 
associated with implementing erosion control solutions in these 
usually remote communities. These include high mobilization 
costs, limited construction season, and the difficulty and 
expense of transporting and obtaining adequate rock and other 
construction materials. In April 2006, the Corps completed the 
Alaska Village Erosion Technical Analysis Report--also known as 
the AVETA study--which estimated costs for providing erosion 
protection for seven villages.
    In addition, in Alaska we lack adequate scientific data on 
the factors that contribute to coastal erosion such as wave, 
wind, tide, current, storm surge, and ice pack. The Alaska 
Erosion Data Collection study should help provide some of this 
important information.
    The risks associated with coastal erosion challenges in 
Alaska are great. Risk considerations include determining what 
level of protection from erosion and flooding are acceptable, 
deciding whether to relocate or remain, and balancing the 
costs, social, cultural, and environmental impacts.
    In summary, the Corps of Engineers has the technical 
expertise to address solutions based on a systems approach and 
to communicate and assist with risk informed decisionmaking 
associated with the complex storm damage and erosion problems 
in Alaska's coastal villages.
    We are proud to work in collaboration with the many 
Federal, State, and local entities to assist in recommending 
and implementing solutions for the coastal erosion challenges 
faced by the Alaskan communities.
    Madam Chairman and Senator Stevens, I am honored to appear 
before the Subcommittee today and thank you for the 
opportunity. I look forward to any questions you may have.
    Senator Landrieu. Thank you very much.
    Senator Stevens. Thank you very much.
    Madam Chairman, now we are going to hear from John Madden, 
who is the Director of the Division of Homeland Security and 
Emergency Management for the Department of Military and 
Veterans Affairs of the State of Alaska. He has extensive 
experience in the State, and he has also had a distinguished 
career with seven Federal agencies.
    Thank you, Mr. Madden, for being with us. We are pleased to 
have your statement.

STATEMENT OF JOHN W. MADDEN,\1\ DIRECTOR, DIVISION OF HOMELAND 
 SECURITY AND EMERGENCY MANAGEMENT, DEPARTMENT OF MILITARY AND 
            VETERANS AFFAIRS OF THE STATE OF ALASKA

    Mr. Madden. Thank you, Senator Stevens and Madam Chairman, 
for inviting me to present testimony on the State response to 
storm damage and erosion in Alaska's coastal villages.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Madden appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    In the past 30 years, Alaska has declared 226 State 
disasters. Of these, 20 were further declared Federal disasters 
by the President. The disasters included floods, storm surges, 
extreme freezing, high winds, wildfires, structure fires, 
earthquakes, volcanoes, and other damage to critical 
infrastructure. About $436 million in State and Federal funds 
have been spent to recover from these Alaskan disasters. More 
than half of these disasters and two-thirds of the funds were 
for recovery from floods, storm surges, and erosion disasters.
    Since 1978, the State of Alaska has declared 23 disasters 
due to damage from sea storms that have hit every coastal area 
from Metlakatla, throughout the Southeast, the Gulf of Alaska, 
the Aleutians, and the full extent of our western and northern 
coasts, a distance greater than the entire U.S. coast from 
Maine to Mexico and California to Canada.
    According to the National Weather Service, an average of 
five storms of hurricane force approach Alaska each year from 
the Pacific and Arctic Oceans, and the Bering and Chukchi Seas. 
In recent years, the ice advances southward from the Arctic 
later and slower. This is an extremely important factor in the 
storms' effects on coastal communities. Shore fast ice greatly 
reduces the wave erosion action of the storms.
    Both Alaskan and Federal statutes enable and authorize 
immediate actions and immediate funding when disasters are 
imminent, meaning likely to occur at any moment. When there is 
a question of safety of life, there is no bureaucracy, only 
swift and hopefully effective action. But where a possibility 
exists for a future disaster, but at an uncertain time, neither 
the Alaska Disaster Relief Act nor the Federal Stafford Act 
authorizes funds to prevent the disasters, no matter how 
certain the odds. Until the disaster can be clearly seen, 
disaster relief funds--State or Federal--cannot be used.
    In fiscal year 2007, Congress appropriated $100 million for 
the Pre-Disaster Mitigation program for the entire Nation. 
Under this program, a project is deemed ineligible if another 
Federal agency has primary authority, even if that agency has 
no funds appropriated for that purpose.
    FEMA administers the Hazard Mitigation Grant Program for 
long-term projects following a major disaster declaration. The 
purpose is to reduce the loss of life and property in future 
disasters by funding mitigation measures during the recovery 
phase. Projects must provide a long-term solution and the 
potential savings must be more than the cost of implementing 
the project. Allocations are calculated as a percentage of the 
costs of recent disasters. These funds are limited and are the 
only means to address the full range of hazards facing the 
State, including earthquakes, fires, floodings, and coastal 
storms.
    Since 1997, Alaska has received about $16 million to 
mitigate the potential for damage from all future disasters, 
far less than the cost of fully mitigating just a single 
community against coastal erosion.
    In July 2006, I testified before the Senate Commerce, 
Science, and Transportation Committee and recommended that 
unmanned aerial systems based in Alaska would greatly improve 
science, safety, and security. With these communities at 
increasing risk, the need is even stronger for these unmanned 
aerial systems in Alaska to help improve weather and climate 
predictions that are required for developing sound public 
policy.
    Based on these observations, I do recommend the deployment 
and basing of unmanned aerial systems in Alaska for weather 
observations, coastline documentation, and immediate damage 
assessment following events. I recommend increased technology 
and staffing resources by the National Weather Service, 
particularly here in Alaska, to work with the State on 
improving their climate models and integrating their weather 
warnings with the emergency preparedness and response.
    Last, I recommend increased funding for the Hazard 
Mitigation Grant Program and the Pre-Disaster Mitigation 
Program and greater latitude on their use for coastal erosion.
    In conclusion, Alaska faces a spectrum of risks, threats, 
and hazards disproportionate to our population, a point not 
adequately measured or fully appreciated in the Federal grants 
process. The problems of coastal erosion and flooding are and 
will continue to be significant dangers to many Alaskan 
communities. The solutions to these problems lay beyond the 
existing capabilities of the communities and of the State. 
Existing authorities covering disaster response and recovery do 
not recognize changing or emerging conditions as an imminent 
disaster.
    Coastal erosion and the flooding problems associated with 
them will place a greater number of Alaskans at a higher risk 
at a faster pace.
    This concludes my prepared remarks and I stand ready to 
answer any questions the Subcommittee may have.
    Senator Stevens. Thank you very much.
    Our next witness, Madam Chairman, is Susan Reinertson. She 
is the Administrator of FEMA for Region X. She is responsible 
for coordinating FEMA's mitigation, preparedness, and disaster 
response and recovery activities in four States: Alaska, Idaho, 
Oregon, Washington.
    Thank you very much for coming to our hearing, Ms. 
Reinertson.

 STATEMENT OF SUSAN K. REINERTSON,\1\ REGIONAL ADMINISTRATOR, 
   FEMA REGION X, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Reinertson. Thank you. Chairman Landrieu and Ranking 
Member Stevens, I am Susan Reinertson, Regional Administrator 
of the U.S. Department of Homeland Security's Federal Emergency 
Management Agency, Region X. On behalf of FEMA and the 
Department of Homeland Security, we appreciate the invitation 
to appear today before the Subcommittee. It is a distinct honor 
and privilege for me to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Reinertson appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    All of FEMA Region X and, I am sure, all of FEMA, are 
dedicated to meeting the needs of the people of Alaska within 
the programs and authorities provided to us by the Congress and 
the President.
    I would like to acknowledge the leadership of our Alaska 
State partners, Major General Craig Campbell and John Madden, 
with whom we have forged a strong professional partnership that 
ensures successful emergency management for the Alaskan 
communities and citizens.
    FEMA is the lead Federal agency responsible for 
coordinating disaster response, recovery, and mitigation 
efforts following disasters and emergencies declared by the 
President, as authorized under the Stafford Act. Three programs 
are made available to communities through our State partner 
organizations to supplement the response activities and 
recovery programs of the State include the Public Assistance 
Program, which provides assistance for the restoration of 
public and certain private nonprofit facilities damaged by an 
event, and the reimbursement of the costs associated with 
emergency protective measures and debris removal. The six 
Alaskan Native villages most prone to erosion have received 
$3.1 million in public assistance over the last 5 years as a 
result of three federally declared disasters.
    We also have the Individuals and Households Program, which 
helps ensure that the essential needs of individuals and 
families are met after disasters so that they can begin the 
road to successful recovery.
    And finally, there are three Mitigation Grant Programs 
which, given the focus of this hearing, I will discuss in more 
detail.
    First, the Pre-Disaster Mitigation Grant Program was 
authorized by Congress under the Disaster Mitigation Act of 
2000 and is available through the State to fund State and local 
mitigation projects and planning efforts. Funding for this 
competitive grant program is not triggered by a presidential 
disaster declaration. Rather, it is funded through the annual 
appropriations process.
    Examples of projects funded under the program include the 
development of all-hazard mitigation plans, seismic 
retrofitting of critical public buildings, and acquisition or 
relocation of flood-prone properties located in the flood 
plain. All projects must be cost-effective, technically 
feasible, and are selected following a nationally competitive 
peer-review process.
    Since the inception of the program in 2003, Alaska has 
received $1.9 million to address several local and State-wide 
planning projects and seismic retrofits of schools in Anchorage 
and Kodiak Island.
    Second, we have the Hazard Mitigation Grant Program, which 
is available to States and communities following presidential 
disaster declarations. The amount of assistance available under 
this program is a percentage of FEMA's assistance made 
available under the response and recovery programs.
    Of the $18.5 million in Hazard Mitigation Grant Program 
funds obligated in Alaska since the inception of the program, 
$7.5 million or 40 percent has been spent on relocation 
projects for Alaskan Native villages. Specifically, over $6.3 
million in Federal funding was provided to relocate 11 
structures in Alatna; $900,000 was provided for relocating 27 
homes in Allakaket; and $200,000 was provided for relocating 
and elevating homes and a city building in Alakanuk. For all of 
these projects, the State of Alaska provided a 25 percent match 
funding.
    Third, the Flood Mitigation Assistance program is 
authorized for mitigating structures insured by the National 
Flood Insurance Program within a community participating in 
that program. Currently, 32 boroughs, cities, towns, and Alaska 
Native village municipalities participate. Eligible projects 
for this program include the elevation, relocation, and 
acquisition of flood-prone structures.
    In 1998, the Flood Mitigation Assistance Program was able 
to fund $600,000 to relocate nine private structures within 
Shishmaref.
    There are significant eligibility and funding challenges to 
FEMA and the State developing successful mitigation projects, 
including relocation, in Alaska Native villages. With respect 
to eligibility, projects that receive FEMA grant funding must 
demonstrate that the benefit of the project is the same or 
greater than the cost. With the high costs in rural Alaska and 
low population, developing a project or relocation effort with 
a positive benefit-to-cost ratio is difficult.
    In regard to funding challenges, our mitigation program's 
funding is insufficient to comprehensively address the Alaska 
Native villages erosion problem. Since the Hazard Mitigation 
Grant Program's funding availability is based on declared 
disaster losses, it would take a catastrophic disaster or 
disasters for the State to receive the needed level of 
mitigation funds. The Pre-Disaster Mitigation grant program is 
funded nationally at $100 million for fiscal year 2007, with a 
$3 million cap on each nationally selected project. 
Nevertheless, FEMA will continue to work with the State of 
Alaska to identify and provide technical assistance for 
planning and development of cost-effective project for 
consideration under all programs of the Stafford Act.
    Please be assured if one or more communities experience 
significant flooding and a major disaster is declared, the full 
breadth of the Staff Act programs will be provided with the 
greatest of coordination and allowable flexibility within the 
scope of the law to ensure the long-term plans of the 
communities are considered, to include the potential relocation 
of certain structures and facilities.
    In closing, I appreciate the opportunity to represent the 
Federal Emergency Management Agency and the Department of 
Homeland Security before the Ad Hoc Subcommittee on Disaster 
Recovery.
    Senator Stevens. Thank you very much. Madam Chairman.
    Senator Landrieu. Thank you. I appreciate you all keeping 
it in the time frame and I do have a few questions.
    General Peabody, you spoke about the civil works budget for 
the country. Could you just repeat again what your budget is 
for civil works for your division and what it is for the full 
country every year?
    General Peabody. Yes, ma'am.
    The last 5 years, we have averaged roughly about $80 
million a year for the----
    Senator Landrieu. For your division.
    General Peabody [continuing]. Pacific Ocean Division. I do 
not have the exact figures off the tip of my tongue, but I 
believe the last few years and the President's budget this year 
is on the order of magnitude $4 to $5 billion a year for civil 
works across the Nation.
    Senator Landrieu. The reason I want that to be on the 
record is that while these numbers seem impressive when you 
throw them out, just to give you a relative number, the damage 
for just these two storms for Hurricanes Katrina and Rita has 
already cost the Federal Government--just these two storms, not 
Hurricane Wilma, not Hurricane Andrew, not any of the other 
hurricanes that hit the South, and I am sure that the 
earthquakes and storms, as you pointed out, Mr. Madden, a whole 
series that have hit Alaska, and it is one of the more 
vulnerable States--is exceeding $150 billion, the damage that 
the Federal Government has already contributed.
    So what we are paying on the back end to put communities 
back together is something that I have been trying to bring 
that message to Washington and to the Nation, is that it is 
such a relatively small amount of money that we are spending on 
the front end. And no matter how great our plans are, without 
some additional resources, we will not be making as much 
progress as I think we could.
    There is a baseline erosion Corps of Engineers report of 
communities at risk, to determine the cost of continued 
erosion, to determine the cost of relocation. This was done, 
interestingly, before the storms of Hurricanes Katrina and 
Rita, which really focused the Nation's attention on just the 
devastation that can occur in a populated area, as well as 
isolated areas along the coast.
    In 2003, the report was requested or required. Do you know 
what the status of that report is? Have you prioritized a list 
of communities in your region that might need relocation aid, 
those that are open to relocation or those that are interested 
in securing themselves in place where they are?
    General Peabody. Yes, Senator, there are actually two 
reports that your question refers to. One is the Alaska Village 
Erosion Technical Analysis (AVETA) report. That report focused 
on seven or nine villages specifically that were, based on 
discussion with local authorities, deemed to be at highest 
risk.
    That particular report is completed and submitted to the 
Congress in April or the summer of 2006. I believe we completed 
the report in April 2006. That estimated the cost--it did three 
things. One was to identify how much time--rough order of 
magnitude, it is all rough order of magnitude--about how much 
time we thought the communities had before coastal erosion 
would effectively make their communities uninhabitable.
    Two, it told us about how much the cost would be to shore 
up the communities.
    And three, it told us about the cost to actually relocate 
the communities.
    Senator Landrieu. But that report was Alaska-specific.
    General Peabody. That is correct, ma'am.
    Senator Landrieu. That was not for the whole Nation.
    General Peabody. That is correct.
    The rough order of magnitude--and I have the details here. 
But the rough order of magnitude for either--I will talk about 
a semi-permanent solution. Because any solution is only as good 
as what----
    Rough order of magnitude for either relocation or shoring 
up the communities ranged from about $50 to $125 million.
    The other report you referred to is the Alaska Baseline 
Study. That is a study of all Alaska Native villages. That was 
generated by the GAO report of 2000 for--so far we have 165 
communities that have self-identified as being at risk to 
coastal erosion, whether from the coast or actually from--some 
of these are close to rivers and have river erosion affecting 
them, as well.
    And we will complete that report in October of next year.
    Senator Landrieu. Are you all using the new technologies 
that--I think it is global spatial satellites--to determine 
your actual sea levels and measurements?
    The reason I ask is because, as Senator Stevens knows, one 
of the shocking developments after the storms that we 
experienced was that the Corps of Engineers and the people in 
the region thought that the levees were a certain height but 
found out, after more accurate measures, that they were three 
to four feet lower than where they should have been due to lack 
of accurate measuring.
    Now with technology today, and I have introduced this to 
Louisiana and I want to ask if you have it here, you can 
literally get very quickly the levels of--I guess land levels 
and rises. Are you all using that technology? Do you have it 
available to you in the region?
    General Peabody. Yes, we are using that technology--the 
point you are getting to is actually a really important point. 
This is absolutely essential. To make good informed decisions 
and to spend the taxpayers' dollar in the most effective and 
efficient way, we really need to have good hard scientific 
data. In Alaska, we are data poor.
    So the two studies I referred to, in my judgment, really 
are starting us on a journey to get the data that we need to be 
able to make these good well-informed judgments that are based 
on science and sound technical knowledge.
    Senator Landrieu. Well, I would really strongly suggest 
that we pursue that in every region of the Corps because 
Senator Stevens, without a doubt, the decisions we make could 
be extremely costly to the citizens, to the taxpayers, and we 
need to make them smartly.
    Let me just ask, Mr. Madden, if I could--and I am sorry I 
do not have this data--but you said in your statement that 
Alaska had experienced an inordinate number of disasters, that 
the State had declared disasters, and the Federal Government 
indicated 20 or so, as you stated.
    As your experience as a disaster leader for recovery, how 
does Alaska rank with all the other States? Do you all ever 
sort of rank how many disasters you have relative to other 
States? And the intensity of those disasters. Could you, just 
from your experience, say that Alaska would be the No. 1 State? 
Or high up on the listing of both State declared and federally 
declared?
    Mr. Madden. We do make informal comparisons with the other 
States, ma'am, and Alaska is probably within the top five or 
six in the Nation for the number of State-declared disasters.
    The nature of our disasters that have reached Federal level 
for the widespread devastation, they are infrequent but they 
are severe. We are the only State to ever get earthquakes above 
9.0 on the Richter scale, and we have had three of them.
    We are the only State that gets five hurricane force storms 
every year, guaranteed.
    So the number of disasters is probably in the top five or 
six in the Nation. I think we are probably No. 1 in the Nation 
for the range of disasters: Volcanos and earthquakes and floods 
and fires and high winds and extreme freezing. So the spectrum 
of these disasters is probably greater in this State than in 
any other State.
    Senator Landrieu. One more question. Do you find, and this 
is not the subject of this hearing specifically but it is on 
our minds as we struggle to rebuild in the Southern part of the 
country, what is the--just a brief comment about the insurance 
availability to people to recover their homes and businesses 
after a catastrophic loss? Is there any insurance sold in the 
State that is affordable that covers catastrophic loss? For a 
residence, not necessarily businesses?
    Mr. Madden. We have been checking most recently into the 
seismic events as one of our threats out there. We are 
experiencing within the State, I think now only one carrier 
offers earthquake insurance. Other carriers have pulled out of 
the market and they may have grandfathered in their policies 
but are not writing new policies.
    And on the flood insurance for individuals, so little of 
the State outside of the developed areas have the right 
documentation to understand if they are or are not in flood 
plains. So without that documentation, insurers are reluctant 
to even enter the market.
    Senator Landrieu. One of the things that our Subcommittee 
is going to do is to try to come up with a different paradigm 
of recovering after a catastrophic disaster that entails more 
than just government subsidies, that entails some sort of 
partnership with the private sector and the government to 
rebuild, whether the small villages like I saw in Shishmaref 
yesterday, or whether they were larger communities like the 
450,000 people in the city of New Orleans, which is my 
hometown, that lost 80 percent of the city was lost to 
flooding.
    The whole country, I just want you to know, is really 
struggling with this, from the East Coast to the South Coast of 
the country. Here in Alaska, I would think it would be a 
problem, as well.
    Ms. Reinertson, I know that you commented, and FEMA has 
generated, I have to say, a tremendous amount of criticism at 
home not because of the people of good intentions. But the 
Stafford Act has just been found very wanting to try to recover 
from catastrophic disaster.
    So the project work order sheets that have to be filled out 
to rebuild every building, every classroom, respond to every 
desk that has been destroyed or firehouse or police station. 
The communities are really struggling to find the money to 
rebuild them and them have FEMA reimburse them. If your 
community is destroyed, you do not have the money to put up to 
rebuild your schoolhouse.
    Are you all having any internal discussions inside of FEMA 
as to a way that we can get a better public work order process 
within the ranks of FEMA? Has that come up at all in your 
discussions this year as you looked at what is not working in 
the southern part of the country?
    Ms. Reinertson. As being the Regional Administrator for 
Region X, I do not get involved in those discussions. I am 
unaware of what has been happening at FEMA headquarters 
regarding that issue.
    Senator Landrieu. Because I just think that--and the 
Senator knows this better than almost anyone--but the military, 
when they go through exercises does lessons learned because all 
battles are not the same. We want to learn from the battle so 
your generals do not repeat mistakes in the next one.
    I really hope that the other 10 regions are paying more 
attention to what happened in our region because you could 
learn a great deal about what is not working for the people as 
we struggle to recover, in terms of bureaucracy and red tape 
associated with the current Stafford Act.
    So as part of what we are here to try to prevent the 
disaster, mitigate against it and if it happens, to be better 
responders. And I thank you for your comments.
    Senator Stevens.
    Senator Stevens. Thank you very much.
    General Peabody, you passed over Section 117 of the 
Appropriations Bill so quickly, just so we will all remember 
what you said, it authorized the Secretary of the Army to 
``carry out, at full Federal expense, structural and non-
structural projects for storm damage prevention and reduction, 
coastal erosion, and ice and glacial damage in Alaska, 
including relocation of affected communities and construction 
of replacement facilities.'' A very general authorization to go 
on top of the Stafford Act.
    It does not seem the Corps was impressed by that 
authorization at all. Did you have any instructions at all from 
your headquarters about how to react to that authorization?
    General Peabody. Sir, we actually have used that 
authorization, which the key component from our perspective is 
that it provides 100 percent Federal funding in that the cost-
sharing aspect of it, which is a key ingredient to practically 
every other authority that we have, is not a requirement. And 
that is critical for most of the villages in Alaska because 
they just do not have the resources to be able to do any of the 
cost-sharing.
    Senator Stevens. I know that, and the difficulty I have is 
with a new paradigm that we cannot add money to the budget, as 
has been requested by the President, you initiate the Corps of 
Engineers project for this area, the Pacific Region. Did you 
request any money in 2006 or 2007 pursuant to Section 117?
    General Peabody. Did I, sir? No, sir, I did not.
    Senator Stevens. Why not?
    General Peabody. Sir, I am not asked to request money for 
the Federal budget. The Corps of Engineers does that at the 
headquarters with the Assistant Secretary of the Army for Civil 
Works?
    Senator Stevens. Well, don't they come to you and ask you 
what your requirements are before they prepare their budget?
    General Peabody. No, sir.
    Senator Stevens. Well, I hate to tell you, back in my day, 
in the Eisenhower Administration, they did. And the bureaus and 
the local offices went to the regions, and the regions went to 
their bureaus and the bureaus went to the assistant secretaries 
and the assistant secretaries went to the Secretary and the 
Secretary went to the OMB.
    Now who is going to go to OMB and request money for the 
authorization I got under Section 117 unless you do it?
    General Peabody. Well, sir, we do make it known to the 
Corps headquarters what the requirements are for Alaska.
    Senator Stevens. But do you take into account the 
authorization, the specific authorization that Congress gave us 
for these storms on the West Coast? This was specifically 
directed to the storm damage on the West Coast. We all knew 
that.
    General Peabody. Yes, sir.
    Senator Stevens. But your agency has never requested any 
money from headquarters to carry it out; right?
    General Peabody. Not to my knowledge, sir. No, sir.
    Senator Stevens. Well, maybe I better get the General in 
charge of the Corps of Engineers and ask him why he did not. 
But I have not seen any requests at all for money to carry it 
out.
    We are faced with the problem of trying to write that in 
one of these infamous earmarks now to meet the needs of these 
people unless someone authorizes it, someone recognizes the 
authorization you already have.
    General Peabody. Yes, sir.
    Senator Stevens. That is sort of mind-boggling, to say the 
least.
    What about coordination with the State and the agencies we 
have created like the Denali Commission? Have you instituted a 
program of cooperation with the State, and particularly the 
agency we created which is Federal/State in nature?
    General Peabody. Yes, sir, we have. In fact, there are 
three main areas where we have collaborated. One with the 
Natural Resources Conservation Service, which has done 
something----
    Senator Stevens. I am only interested in this one subject--
--
    General Peabody. Denali.
    Senator Stevens [continuing]. Erosion damage. Do you have a 
coordinating concept with regard to the State of Alaska and 
particularly this Federal/State agency, Denali Commission, for 
erosion damage on the West Coast?
    General Peabody. Yes, sir, we do. With the Denali 
Commission, we are involved and actively collaborating and 
coordinating with them for the last 2 years. In fact, the 
Denali Commission just gave us nine task orders recently to do 
some work on providing barge landings and--designs for barge 
landings and docks in communities.
    Senator Stevens. Did any of those committees come up and 
ask about the need, the dollars required from the Federal 
Government to carry on your work?
    General Peabody. For the total program, sir? Not to my 
knowledge.
    Senator Stevens. The West Coast. We are talking about that 
erosion on the West Coast.
    General Peabody. Yes, sir.
    Senator Stevens. Did you come up with any specific numbers?
    General Peabody. With the Denali Commission?
    Senator Stevens. Working with the State and the Denali 
Commission?
    General Peabody. Well, Senator, the State has a committee 
that we have our engineering division chief cochairs one of the 
working groups on the coastal erosion on the West Coast with 
the State.
    Senator Stevens. What I am trying to point out, what you 
have left is a void. It means those of us from Alaska have to 
dream up these figures and ask Congress to appropriate money so 
you can go ahead with the program. Who is going to ask for the 
money? You have seen the damage. We know it is there. It has 
been 3 years of damage.
    Have you ever requested money from the Corps of Engineers 
to meet the needs of Section 117?
    General Peabody. Sir, we made clear to the Corps what the 
requirements are after the different--for the different issues 
on coastal erosion----
    Senator Stevens. That is what I am asking.
    General Peabody [continuing]. In Alaska.
    Senator Stevens. Did you ask for money under Section 117?
    General Peabody. Sir, I do not formally send up a memo 
saying I need money under Section 117. But we make known the 
requirements that we have. That then goes into the budget 
process. And there are six or seven key parameters that are 
used, again at an echelon above me, at the headquarters and in 
the Secretary's office, to determine whether or not these will 
compete at the national level. Those have to do with dam 
safety, they have to do with economic benefit-cost ratios, and 
so forth.
    And frankly, sir, they do not compete because they do not 
meet any of the criteria that the Federal policy establishes as 
a priority to meet the budget requirements?
    Senator Stevens. What is Section 117? There is a 
declaration signed by the President that it is your job, that 
the Secretary of the Army is to carry out this program with 
regard to both prevention and reduction and erosion and ice and 
glacial damage in Alaska because it was an emergency at the 
time.
    My great friend from Louisiana, we went down there. We 
immediately put up money for the Corps of Engineers. There was 
not an environmental impact statement. There was not a basic 
study. But we did give you some money that one year in that 
bill.
    General Peabody. Yes, sir.
    Senator Stevens. It was used for an environmental impact 
statement. It was used for design analysis. It wasn't used for 
an emergency basis.
    General Peabody. Sir, those are requirements under the law 
to execute the actual construction.
    Senator Stevens. This is the law, to use the money, 
including relocation of affected communities and construction 
of replacement facilities. That is the law in 2005.
    General Peabody. Yes, sir, and I agree with that. But the 
environmental impact requirements, environmental assessments, 
are also a part of the law that we must follow.
    Senator Stevens. Why didn't they follow them in New 
Orleans? They did not do a--we had damage up and down the West 
Coast just like they had in New Orleans. But every time we get 
money, we have to use it for an environmental impact statement. 
You can see the damage. It takes a full year to get people in 
there to start preventing the next year's damage.
    General Peabody. Yes, sir, it does take----
    Senator Stevens. And now the damage has already taken 
place. That is what we saw yesterday. Three different stages of 
damage in Shishmaref, the first initial money was washed away, 
the second one was washed away. Now we hope the third one 
succeeds. But it could have--if we moved in immediately, the 
first time, and spent the money instead of spending it for 
studies and gone in and done it on an emergency basis probably 
the second and third one would not have been necessary.
    General Peabody. Sir, we did execute emergency erosion 
control at Kivalina. The problem with executing things on an 
emergency basis is they are very temporary in nature.
    Senator Stevens. I understand that, Colonel. But that did 
not say Kivalina. It said the whole West Coast.
    General Peabody. Yes, sir, but I am giving you an example 
of where we have done an emergency basis execution on a 
construction mission and it does not last. Those studies are 
really key and central for us to be able to execute a shoreline 
protection system that will have some duration.
    Senator Stevens. You have got another authority called a 
continuing authority program; right?
    General Peabody. Yes, sir, we do.
    Senator Stevens. Did you use the capability for each one of 
those nine threatened cites, the continuing authority program? 
Have you used it on the West Coast for those nine villages that 
were identified both by the GAO and by your report, as being in 
dire trouble?
    General Peabody. Sir, we have----
    Senator Stevens. Have any economists or anyone else looked 
at the continuing authority program?
    General Peabody. Sir, we have used the continuing authority 
program. All of the studies, all of the work that we are doing 
with the continuing authorities program currently is focused on 
studies. And that is because the 2006 Appropriations Act 
basically told the Corps of Engineers no new starts--you have 
to finish what you have already started.
    So if we had not started any of those projects, which we 
had not at that time, we were essentially frozen in being able 
to go forward.
    Senator Stevens. I am not trying to beat you up, General. I 
am just trying to say the programs----
    [Laughter.]
    General Peabody. I understand.
    Senator Stevens. Have you identified any additional funds 
for that Tribal program for these affected communities? Have 
you delineated the needs for the Tribal Partnership Program for 
those nine areas?
    General Peabody. Sir, we have not. And I have probably done 
a poor job of answering your question. We do identify the needs 
and we do make clear to the headquarters all of the 
requirements that we have based on coordination and 
collaboration with local, State, and Federal authorities here 
in Alaska, to include the Denali Commission.
    When we send it up, however, again when that goes into the 
budget process to determine what is going to be funded and what 
is not going to be funded across the Pantheon of Federal 
programs that are requirements, they do not compete based on 
the rules that are currently part of the game.
    Senator Stevens. I have a definite feeling if the Federal 
Government had reacted in the first instance with the storms in 
2005 the way we reacted in New Orleans, we would not be 
spending money now to deal with the tertiary damage that has 
taken place in 2006 and 2007 in these villages.
    We did not move, and I do not know why because we gave you 
a general authority to move, the Secretary. We are going to 
have a little fun with the Secretary later this year in the 
Appropriations Committee.
    Let me move on. Mr. Madden, I am interested, after 
listening yesterday at the State legislature's hearing. One of 
the great problems I see is that we have Federal programs--and 
FEMA is one of them--they have requirements for eligibility. 
They have to have an approved mitigation plan in order to move 
forward to mitigate damage.
    As I take it, the problem is that these villages do not 
have the money for that. Have you ever looked at trying to ask 
the legislature to make money available to these villages so 
they can get included in the Hazards Mitigation Program?
    Mr. Madden. Not to the legislature, sir. We have been 
trying to handle that within our direct resources. We have 
teams that have gone out to several of the communities to help 
them write it from scratch, develop a template that can be used 
across a range of villages. We have used some of the Pre-
Disaster Mitigation Grant money for that, for them to 
accomplish that.
    Senator Stevens. Ms. Reinertson's statement indicates that 
only two villages were prepared. Shishmaref and Kivalina are 
working on a plan. But other than that, there is no plan. Am I 
right? There is no pre-mitigation plans prepared yet in these 
areas. And that is why we cannot deal with the mitigation 
programs. Is that correct, Ms. Reinertson?
    Ms. Reinertson. The mitigation plans, to my knowledge, are 
in a draft form right now. We have been working with them and 
helping them with the planning process.
    Senator Stevens. But there were nine villages noted in the 
GAO program and seven of the nine were in the Corps program. 
And only two of them seemed to be having progress on the plans. 
And until they have a plan, they cannot get your assistance. Am 
I right?
    Ms. Reinertson. Correct.
    Mr. Madden. Sir, we have 15 communities that are in the 
final stages of several of those mitigation plans, which are 
the central first step. So we do have all of those communities 
covered, plus several others.
    Senator Stevens. Isn't there any way to waive that, for 
people in dire emergency, and have suffered emergencies, 
serious storms three times? Why do we have to wait to make 
plans now for these villages that we know were damaged three 
times by storms in the last 3 years? Don't you have authority 
to waive that, Ms. Reinertson?
    Ms. Reinertson. No, I do not have the authority.
    Senator Stevens. It was waived in New Orleans. I saw it. 
Every Federal agency went in there and started working. But 
they did not do that here.
    Ms. Reinertson. No, that is correct. The Stafford Act does 
not allow us to waive for a natural process such as erosion.
    Senator Stevens. That was declared a Presidential 
declaration of disaster in the first storm. And the declaration 
was available in New Orleans, the Presidential disaster 
declaration.
    Now why did we require more in Alaska to deal with 
disasters than they did in New Orleans?
    Ms. Reinertson. I do not know the answer to that question.
    Senator Stevens. Well, I hope you will ask your people to 
be prepared for that question when we get back to Washington, 
will you?
    Ms. Reinertson. Yes, sir.
    Senator Stevens. Thank you very much.
    Senator Landrieu. Thank you.
    Mr. Madden, you testified, and this is following up on what 
Senator Stevens said, that FEMA mitigation funds cannot be used 
for flood studies, mapping, control or demolition. Is that 
true? That is, I think, what you testified. And could you 
comment on it?
    And then, Ms. Reinertson, what do you think FEMA's position 
should be about these restrictions? Is that what you testified 
to?
    Mr. Madden. Yes, ma'am, it is. And I drew those words 
directly from the FEMA guidance from their brochures and 
publications with the programming. This is a direct quote from 
them as to what they can and cannot be used for.
    Senator Landrieu. Do you agree?
    Ms. Reinertson. I implement and execute the policies. The 
policy questions are up in the headquarters.
    These are great--the Pre-Disaster Mitigation and Hazard 
Mitigation Grant programs are wonderful programs. But we are 
limited by the eligibility and the funding that goes into them 
as to how a disaster declaration can be used.
    Senator Landrieu. You are not only limited by the amount of 
money, which is clearly just a cursory review of the budget, 
but it seems like you are limited by the language itself. If 
you are ordered to mitigate and you get money, even if it is a 
small amount, and you cannot use it to do flood studies, 
mapping, or demolition in disasters, how do you begin the 
process?
    As General Peabody testified, that is one of the most 
essential elements of mitigation, to figure out how high you 
are, how high you need to be, before you can even make a plan 
to either stay or move depending on what is decided. If you 
cannot use the mitigation money for mapping maybe, Senator, we 
need to either change the law or be more--do you want to 
comment, Mr. Madden? Would it be helpful to you?
    Mr. Madden. Well, I agree with the concept that you have to 
understand before you can act. The State is very vigorously 
pursuing digital mapping to document elevations and contours 
for higher study. There has not been a strong Federal effort to 
do that. So the State is trying to do that, mapping not only 
for aviation but for navigation and these land use issues.
    It is restrictive and the Federal law does prevent us from 
doing the right thing. The right thing is helping the 
communities. So even when we apply, our application will not 
even get past the first range of review because of the 
limitations of the program.
    Senator Stevens. How do you explain the great reaction in 
New Orleans? Although, even with that, it actually was 
insufficient. It should have gone on for a lot longer and it 
should have been more directed. They were not bound by the laws 
you are talking about right now. Why should those laws not bind 
the Federal agencies in New Orleans but totally prevent us in 
Alaska from getting any reaction in those nine villages?
    You were there yesterday, Ms. Reinertson. You saw 
Shishmaref. You saw some damage, didn't you?
    Ms. Reinertson. There are a whole lot of other programs 
that can come into effect other than the Hazard Mitigation 
Grant program. There is Flood Mitigation Assistance. The 
National Flood Insurance Programs, of course, today have their 
own eligibility issues and benefits.
    But there are a lot of programs with different eligibility 
issues that are more than a hazard mitigation grant program.
    Senator Stevens. In New Orleans your agency appointed a 
coordinator for all Federal programs to meet New Orleans' 
needs. Did your agency ever think about appointing a 
coordinator for the nine villages?
    Ms. Reinertson. Not that I am aware of.
    Senator Landrieu. That might be very helpful, but let me 
just clarify for the record, Senator. As you know, when I 
talked about the figure of $150 billion basically allocated for 
the catastrophic disaster that occurred, please do not let the 
record reflect that that money has actually been spent. It is 
stuck in bureaucratic machinations, basically, just along the 
same lines as we are talking.
    And for the record, even though I requested, in our 
delegation, to have some of the environmental impact statements 
required by the law waived, it was denied. So we are not moving 
forward with all the waivers that we asked for. The waivers 
were clearly necessary then. They are obviously necessary now.
    And we are dealing with the Stafford Act and it is wholly 
inadequate for what we are attempting to do. I have said before 
part of this is trying to help these villages and coastal 
communities to prevent destruction. But the other aspect of it 
is helping them recover once destruction comes.
    And to use the analogy, it would be like us trying to 
rebuild Europe after World War II with FEMA project work order 
sheets, without maps that anybody either has or can read. It is 
just a fool's errand is what it is.
    And our constituents are depending on us to get a better 
system for you, General Peabody, to request the money that you 
need; for Congress to appropriate it so that we do not get 
blamed when we ask for extra money, act like we do not know 
what we are doing in our States when we do; and have a better 
system.
    And that is what this field hearing is about. And I intend, 
Senator, to have field hearings around the country on this 
issue because there are many coastal communities at risk, 
Alaska being on the front line, but the Gulf Coast States also 
being on the front line and many other communities in the 
country.
    But Mr. Madden, do you have any suggestions for us as we 
move forward? Your testimony was full of some. Would you like 
to spend a few minutes talking about a few?
    Mr. Madden. Well, ma'am, my counterparts from the 50 States 
and the territories and possessions all met in Oklahoma City 
about 2 weeks ago. And we have been working to understand what 
should have been in place before Hurricane Katrina and what 
would have enabled a better response, and how that would have 
affected it.
    And my colleague, Jeff Smith, from Louisiana has done a 
wonderful analysis of how those laws limited the reaction. 
There will be ready, within the next 30 to 60 days, several 
legislative proposals that will emerge from our collection of 
State directors that look to not only streamlining the process 
but to allow examination of these disasters and threats 
beforehand so we can invest something before, instead of paying 
great amounts after.
    So there is communication amongst the States trying to find 
the coalitions of constituencies dealing with these threats 
similar to what happened in the 1970s and 1980s with fires 
which know no boundaries. We have the storms which know no 
coastline exclusively.
    So I would expect that before the next legislative session 
there will be a number of proposals that come from my 
counterparts in the other States as we unite to improve our 
recognition of how the Federal Government has helped and how 
they have hindered the States in preparing.
    Senator Stevens. I hope you look at that time, when you are 
preparing these proposals, at the requirements of Federal law 
that impose upon communities like Shishmaref the duty to have a 
prepared mitigation plan. Unless they have it, they are not 
going to get any assistance.
    Now we may be able to cut through that. I am not sure. But 
at least the State ought to be looking at all of these areas 
that are threatened and help them to get a mitigation plan 
prepared.
    One of the things that bothers me after the trip yesterday 
was the comments that were made by some of the people, the 
local residents, in terms of the lack of ice. That the ice--
this one person told me, in the days gone by when there was a 
storm, was a threat in and of itself because big chunks of ice 
came up and hit the village. Now the ice is disappearing. At 
the same time, it was a buffer to large waves and held down 
some of the larger waves in some circumstances and was a 
protection that is not there now for the storm walls that we 
are putting up.
    The question is what we should do in terms of having--
someone suggested some kind of a baffle outside of that rock 
wall that is being put up to protect Shishmaref so that there 
would be a baffle to the waves as they come up, which is what 
the ice would have done if it was there.
    Are you looking at how the State can help get prepared to 
have plans that will get the assistance from FEMA if that 
should develop, that the storms hit us again and there is no 
protection?
    Mr. Madden. Yes, sir. We are working on several different 
levels on that. As an example, when the storm hit in Kivalina 
on September 13 or 14, within about 18 hours I had two people 
from the State on the ground. One was for the emergency 
response, the immediate safety of the community and the 
immediate needs of the people who had evacuated.
    Accompanying him was our State hazard mitigation officer to 
look at it for the longer term. So as that storm hit, he 
immediately gathered the information that we could use and 
share with our other Federal partners to get that plan done.
    And also, that the mitigation plans that we are helping the 
communities develop not be just single purpose. There are other 
risks at Kivalina, in particular, and other coastal communities 
about the permafrost and how buildings are built on them, and 
whether that could be a risk in the future. We want to ensure 
that the mitigation plans look at the entire community and all 
of the risks.
    And we are pushing, on a very fast track, 15 of the most 
vulnerable communities we have on the Western Coast.
    Senator Landrieu. Can I ask specifically, and I am so glad 
that Senator Stevens pushed me, but he did not have to push too 
hard, to get me to Shishmaref because I told him if I had not 
seen it I would not have believed it. And I am not unfamiliar 
with coastal communities. I represent a State with very small 
villages, but not one as isolated as this.
    But when a community--this particular village, I spoke to 
the mayor and the community leaders that spent about an hour 
with us walking through the village and seeing the rock walls, 
the jetties and the levees, that the community was 
contemplating a potential move. But one of the problems is if 
they did, they could not--no one would guarantee, the State or 
the Federal Government, the building of the airstrip which, of 
course, they are very dependent upon for any kind of access.
    Can you all comment about that? Are villages that are 
given--are they given choices, real choices about relocating? 
Or is the option you can stay where you are and take the storms 
and the devastation that comes? Or you can move and not have an 
airstrip and be completely isolated? Because that is not a very 
good choice. And this might not be the only village in this 
situation.
    Is that an option? If they want to move, will somebody 
build them an airstrip?
    Mr. Madden. Each village will be unique on this issue as to 
how close the airstrip is located to the community. There is a 
commitment by the Federal Aviation Administration that they put 
on record that if a community moves and the same airstrip is 
usable, that they will build the necessary roads and contacts 
between the new location and the existing airstrip. That is a 
commitment that FAA said in the past recent years.
    Senator Landrieu. That is in the law now? Is it just Alaska 
that that commitment has been made to, so they will not build a 
new airstrip but they will build a road to the old airstrip?
    Mr. Madden. Yes, ma'am. And where the location will not be 
served by the airstrip at the former location, that must enter 
into the entire national program for airport improvement 
programs. And in Alaska it takes, just for a 3,000 foot gravel 
strip with minimum instrumentation it takes at least 3 years, 
usually more than that. And that is after the location has been 
decided and aligned with prevailing winds.
    Senator Landrieu. Well, that obviously is a system that is 
not going to work and needs some serious adjustment. And I am 
sure it is not just communities in Alaska that are in this 
situation, but Alaska is somewhat unique in its breadth and 
isolation for the communities.
    So when people say just move them, it involves cultural 
considerations. But if the village could get past that and 
decided for the most part they will move, their choices are 
very limited about where you would move to and what kind of 
infrastructure would allow you to stay together.
    General Peabody. Ma'am, if I could comment on that, there 
are some technical, from a constructability aspect also, 
limitations. Most of the area where most of these villages are 
located are basically coastal plains that are wetlands. That is 
why we have the issue of permafrost. So when you do move, it 
will require significant material to be brought in. It will 
require significant investigation to make sure you can put your 
village at a location that can survive and that will endure and 
not just fall apart after you build it in 5 or 10 years.
    So it is very complex and it is very difficult from a 
technical standpoint to make sure that when you put the 
airfield in, it will endure. The further you get back from the 
coast, of course, the more that affects the cultural aspects of 
their subsistence livelihood, as well.
    Senator Stevens. Let me ask just one last question, Madam 
Chairman.
    When we went to New Orleans, we found that there were 
Federal agencies, State agencies, there were regional agencies, 
and they were all working and trying to do their best. The 
President used his authority to appoint a coordinator. It was a 
Coast Guard Admiral who did an admirable job. I think he tried 
to get it done. There were too many people tying his hands 
behind his back.
    But we do not have that here. Yesterday, at the legislative 
hearing, George Cannelos, the head of the Denali Commission, 
suggested they would be willing to consider taking that on. I 
am not so sure as we would like to see that happen.
    But do you see a need to have in the law a provision that 
someone will appoint a coordinator of all Federal agencies and 
a person to work with the State agencies and local agencies in 
the event of emergencies like this?
    General Peabody. Sir, let me take a first pass before my 
colleagues here. Sir, that would be an extremely useful 
function because as one of your earlier questions to me 
indicated, we do have to coordinate across many different 
Federal, State, and local agencies to understand the details of 
the problem and then come up with viable solutions that are 
going to actually work over the long haul.
    If you have a coordinator that can pull together not just 
the Federal but I would also advocate for the State and the 
local agencies as well, I think that could at least help 
identify maybe quicker where some of the obstacles are so that 
we could address or you could address with the Administration 
appropriate solutions from a local policy and a statutory 
aspect.
    Senator Stevens. I would like to see that person have the 
authority to go to a Federal court and get a waiver approved of 
some of these restrictions that prevent immediate action in an 
emergency. Do you see a problem with that?
    General Peabody. Sir, we can take immediate action in 
emergencies. The problem is once the----
    Senator Stevens. You cannot waive for the environmental 
impact statements. You cannot waive for the provisions and laws 
you have just been talking about.
    General Peabody. Sir, I think there is probably a 
disagreement on the definition of an emergency. I believe your 
definition of an emergency in Alaska is not one that is broadly 
recognized in the Federal Government. And it is certainly not 
one that I can point to either policy or statutory limitations 
and say yes, that is an emergency.
    Senator Stevens. If a village is about to be annihilated, 
you do not think that is an emergency?
    General Peabody. Well sir, it is. But there are constraints 
in the law. For example, the advanced measures that we used in 
Kivalina, the only reason we were able to execute that was 
because there was public property that was threatened in the 
form of the tanks.
    Senator Stevens. I am in favor of defining a power for this 
person we appoint in the event of a regional emergency to go to 
a Federal court and get a waiver for specific restrictions for 
a period of time to enable them to protect the people and the 
property from further damage caused by that emergency.
    Now somehow or another we have got to find some way to cut 
through this. And I think certainly this is something that New 
Orleans needed. I was there when they were starting to fight 
between themselves as to who has the authority, someone else 
has authority, you cannot do this, but before you do what you 
have got to do, we have got to do this.
    Now somehow there has to be some control, if this process 
we are in is going to continue for a period of years, we are 
going to see more of these emergencies. And I would not like to 
see them end in the future like we have seen these nine 
villages in the past.
    General Peabody. Sir, that would be a useful function. I 
would just caution that if we do bypass some of the constraints 
and we do execute short-term or we do execute emergency 
solutions, those emergency solutions are likely to be very 
short-term and we still have to deal with the longer term 
aspects of the problem. And that is all of the Pantheon of 
factors that are contributing to this coastal erosion which 
appears to be--I am not a scientist, I have not studied it 
except as a citizen just like the rest of us here--but it 
appears to be a long-term issue that is likely to continue for 
some time.
    I do not believe that this is really amenable, in my 
judgment, to the emergency kind of solutions.
    Senator Stevens. We have a disagreement there.
    General Peabody. I am not sure if my colleagues want to 
comment on this one.
    Senator Stevens. I do not know either, but I think the 
people that make judgments like that ought to go live in 
Kivalina or Shishmaref for the winter.
    [Applause.]
    Senator Landrieu. I do not believe there are any further 
questions for this panel, so thank you all very much. We really 
appreciate your testimony.
    Senator Stevens. Ms. Reinertson, you started to say 
something and I interrupted you.
    Ms. Reinertson. I was going to comment that what you are 
suggesting is outside of my authority, but I just wanted to let 
the Subcommittee know how committed we are, that we are working 
with the local and State in a culture of preparedness and that 
we are obviously going to be there in the event of a disaster. 
If something happens, we are not going to wait for a piece of 
paper to pass from here to Washington. We will move forward. 
And we will help victims and forward lean and get things to the 
people that we need to get them out of there.
    We also work very closely, our mitigation division works 
very closely with the local, with the Alaskan Native villages 
and the State in prioritizing. Thanks to the post-Katrina 
reforms, we now have an office in Alaska. FEMA has an office in 
Alaska that never existed before, with a full-time manager, 
with a full-time operational plan and a full-time Department of 
Defense planner as well.
    And we are working with the entire State of Alaska, 
including the Alaskan Native villages, in lots of new efforts 
since the post-Katrina Reform Act. There is a gap analysis that 
is occurring that we are going to be starting on hurricane 
safety because of hurricane season. It is a wonderful tool that 
we are going to start. And it is very comprehensive that we are 
going to be working with the local, State and our other Federal 
partners.
    So I just wanted to point out that there are so many great 
things that happened since the post-Katrina Reform Act that we 
are able to be in a better position to help in the event of an 
emergency but also in building this culture of preparedness for 
Alaska and the entire region so that we can build and 
strengthen national preparedness.
    Senator Landrieu. Well, that is good to hear.
    What is the gap analysis that you are doing, just real 
briefly, maybe a minute on that. And Mr. Madden, I would like 
to recognize you on that.
    Ms. Reinertson. We are going to be beginning at the start 
of the hurricane season. It was developed in New York. It is a 
tool that looks at what is out there, what is needed, who can 
fill the gap. And if no one can fill the gaps, where do we go 
to figure out how to fill those gaps. And it includes the 
private industry, private non-profit, Federal, State and local 
governments.
    Senator Landrieu. But is that focus from right at the 
aftermath of the event itself? Or is it a gap analysis for a 
long-term sustainable either prevention or long-term 
sustainable rebuilding?
    Ms. Reinertson. It is a holistic look at preparedness, 
which includes response, recovery, planning, and everything.
    Senator Landrieu. John Madden.
    Mr. Madden. It has been my honor to have served 38 years in 
Federal service and 2 years ago to be selected by the State to 
serve in this position.
    Bringing that knowledge to bear suggests that having a 
Federal coordinator is of two natures. One, it is very 
important to coordinate the existing resources in those 
activities. The State accomplished this with Federal partners 
on a new innovative concept to protect the energy sector 
against terrorist and natural threats.
    The other part is that it is in the nature of Federal 
agencies to control the outcome through controlling the 
delegation of authority. So just as General Peabody said, with 
national decisions at national level, no agency is going to 
give up what they would call their own sovereignty for a region 
unless it was really clearly directed on how that happens.
    The State is very eager to align with those proper 
agencies. And within the Federal community I have found no 
better partners for the State than FEMA and the National 
Weather Service, and in this last year with the Corps of 
Engineers. Their eagerness to help us is there. Their 
willingness is there. Their commitment is there. But the 
limitations by their headquarters are extreme.
    So if that could be broken, I think the State is very well 
prepared to use its existing structures and the new Climate 
Change Subcabinet and other needs to work with those Federal 
agencies. But my concern is having someone authorized by title 
but not granted the authority to act for those other agencies.
    Senator Landrieu. Well, the State could not be blessed with 
a more determined and able advocate than Senator Stevens to get 
the headquarters to focus and to listen about what Alaska 
needs. But I can just tell you, there is a long way that we 
have to go.
    Senator Stevens.
    Senator Stevens. Thank you very much. I do not mean to be 
offensive, but this is the third year now we have tried to find 
a solution to these problems. And what I heard yesterday is it 
appears that we are going to have another bad year. So I would 
hope we can find a way to get Congress to listen to us, to give 
us that authority to have an appointment.
    As I said, the Denali Commission is in place. It may be a 
place we turn to for temporary coordination. But I would like 
to see some kind of a structure that exists on all of our 
coasts, not just our coast, but the coastlines on the East and 
West and the Gulf and everywhere, to have this in place before 
these disasters take place.
    I do thank you very much and thank you for going along with 
us, Ms. Reinertson, and thank you for your testimony today.
    Senator Landrieu. Thank you all for your service.
    Senator Stevens. We will take a 5-minute recess.
    [Recess.]
    Senator Landrieu. If everybody could come in and take their 
seats, we are going to begin.
    Senator Stevens. Madam Chairman, on the second panel we are 
going to hear first from Colleen Swan. Ms. Swan currently 
serves as the Tribal Administrator for the Native Village of 
Kivalina, a post she has held for 16 years. She is a career 
Tribal Administrator and has worked to protect the well-being 
of the community and has been very much engaged in the 
discussions pertaining to the restoration project in Kivalina.
    Thank you, Ms. Swan.

 STATEMENT OF COLLEEN E. SWAN,\1\ TRIBAL ADMINISTRATOR, NATIVE 
                  VILLAGE OF KIVALINA, ALASKA

    Ms. Swan. Thank you, Senator. Thank you, Subcommittee, for 
inviting us to provide testimony on the situation in Kivalina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Swan appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    The Village of Kivalina is located on the southern tip of 
an 8-mile long barrier reef. According to Earnest Burch, Jr., 
the village was officially established with the introduction of 
a school that was built in 1905-06 on the southern tip of the 
island, and the immigration of a reindeer herder from Barrow 
who brought much needed reindeer meat to the village, and the 
establishment of a mission.
    The Kivallinigmiut, the Kivalina population, are the 
original native inhabitants of the area that includes both the 
Kivalina and Wulik Rivers. The Kivalina people originally lived 
their lives in settlements located inland for most of the year 
along the rivers. Their hunting habits determined their 
movements in the Kivalina region, including hunting along the 
coast for sea mammals. The construction of the school required 
them to settle on the island in order for their children to 
gain an education.
    Erosion problems have always naturally occurred along the 
Kivalina coast. According to a National Geodetic Survey Erosion 
Impact Study conducted by the National Oceanic and Atmospheric 
Administration, which began in 1953 and ended in 2003, the 
island of Kivalina has lost approximately 27 acres on the 
Chukchi Sea side of the island with eight acres accreted on the 
Kivalina Lagoon, resulting in a net loss of 19 acres in the 
study period. Naturally occurring erosion and accretion is 
considered to be typical of barriers islands. The result of 
this study confirms the stories that elders of the community 
have told about the second and third ridges of the island 
parallel to the existing village site that no longer exist due 
to erosion.
    The village began discussions in the 1950s about relocating 
the village after minor flooding occurred that did not inundate 
the village but the storms did over-top the uplands of the 
island and threatened to flood homes located along the coast. A 
vote was held in an election process that resulted in a split 
decision that ended the effort to relocate the village almost 
immediately.
    In 1990, discussions to relocate the village began once 
again to address overcrowding conditions caused by the 
shrinking island and a growing population. Because of the 
overcrowding due to lack of development space coupled with the 
lack of water/sewer services, health conditions of the 
community became a concern. Land erosion and global warming 
were minor issues during the first years of the developing 
village relocation project.
    In 1998, an election was held by the City of Kivalina to 
provide the people in the village an opportunity to select an 
option to address the concerns raised during the 8 years of 
discussions. In that election process, a site was selected that 
was later determined by studies done by the Army Corps of 
Engineers to be rich with permafrost and was deemed unsuitable 
as a potential new village site. In response, in 2000, another 
election was held by the city of Kivalina which resulted in the 
selection of another site closer to the ocean. Global warming 
remained a part of the discussion because of land erosion along 
the Wulik River--that were beginning to emerge.
    Once what the people thought was the final vote for a new 
village site was made, global warming became an open issue. 
Predictions were made of a potential for coastal flooding in 
Alaska. Although no concrete evidence existed, and while 
skeptics abound, the global warming discussion began to have 
its effect on the Kivalina Relocation Project. Studies that 
were thought to be near completion became insufficient to 
address global warming and what is now perceived to be an 
unsuitable site because of the unproven flood-prone designation 
of the selected site. The Kivalina Relocation Project is now 
hindered because of this discussion. The original master 
schedule, as devised by the Army Corps of Engineers, planned 
for the village move to begin in the summer of 2006.
    In the summer of 2004, a laundry facility drain field 
project was constructed by the Alaska Native Tribal Health 
Consortium. This project required a certain amount of fill 
material to cover the leach field. The material used to cover 
the field was taken from an area adjacent to it behind the 
Northwest Arctic Borough School District property despite 
warnings from a local resident that this removal of beach 
material would cause an erosion problem.
    During the fall sea storm season in 2004, approximately 60 
feet of land eroded, as predicted by the local resident. An 
elder in the village observing the efforts of the local 
volunteers to save the property from erosion made a comment of 
how he had never seen sea levels that high as he was witnessing 
it that day. In his book entitled ``The Inupiaq Eskimo Nations 
of Northwest Alaska,'' Earnest Burch, Jr. states, ``oceans 
begin to freeze in October until the time the ice leaves in 
early July.'' That is no longer occurring.
    The ocean ice that had traditionally kept sea storms under 
some control to prevent waves from slamming into the land were 
absent that year and have been absent during the last few 
years. The fall sea storms of 2005 followed with the same 
results.
    In the summer of 2006, the Northwest Arctic Borough, with 
funds from the Denali Commission and the State of Alaska, 
constructed a project to protect life and property in Kivalina 
with concertainers, or wire baskets, and fabric lining stapled 
together at the seams. On the day that the celebration of the 
completion of this project was scheduled, a minor sea storm 
struck and immediately damaged the sea wall. The celebration 
was cancelled and repair work began with funds left over from 
the original project. A combination of several factors may have 
contributed to the failure including poor engineering and 
design work, elevated sea levels, lack of fall ice formation, 
and annual fall sea storms.
    I have to mention at this point that there was no 
consultation with the residents of Kivalina. Neither was there 
any consultation with the leadership in the community.
    At the request of the Tribal Office staff of the federally 
recognized tribe, the Native Village of Kivalina, the Army 
Corps of Engineers designed a geotextile two cubic yard sack 
erosion protection project after assessing the damage to the 
sea wall. But before any funds could be found to pay for this 
project, unusually early fall sea storms struck the village in 
July. That project design was abandoned due to an early fall 
sea storm season and lack of funding. The project design was 
fashioned based on the current condition of the existing 
seawll. The storm surge changed the condition significantly to 
a point where the new design could not be used.
    The undertow of the ocean surge has considerable strength. 
Not only does the wave action slam the wall, causing damage 
with each blow, but the undertow in turn draws the fill 
material out from under the baskets, causing them to collapse. 
To address this situation, when the Borough made the leftover 
funds available, the project supervisor devised a plan to 
restore some of the damaged baskets. But before any significant 
progress could be made, an earlier than usual sea storm struck 
again in August 2007 and destroyed the plans to salvage and 
fill the wire mesh baskets with supersacks filled with gravel. 
That plan was abandoned also due to more unusually early sea 
storms.
    With funds left over from the original sea wall project, 
which is mostly depleted today, the Kivalina work crews have 
managed to keep the sea wall from tumbling into the ocean. But 
with the lack of support for their efforts from the usual slush 
ice that once formed in October, all they have been able to do 
is to throw super sacks at the problem. Each time a storm 
strikes, more one-cubic yard super sacks are lost to the ocean. 
As of Monday, October 8, 2007, the sea walls continues to 
develop new problems, including a deepening ocean along the 
shore. Another problem that we face is lack of funding needed 
to prevent the loss of critical infrastructure, such as the 
fuel storage facility for the power plant that serves the 
community.
    The Alaska District Army Corps of Engineers has developed a 
plan and design for a rock revetment project for construction 
in 2008 pending appropriation of funding from Congress.
    Based on our situation here in Kivalina, and all of the 
problems that seem to be associated with global warming, the 
Native Village of Kivalina recommends the following: First, 
inter-agency response, which includes the State of Alaska, the 
Federal Government as part of their trust responsibility to 
tribes, and other entities need to come together with the local 
governing bodies of the village to devise a plan to address 
erosion and relocation issues. More funds should be provided to 
the local governing bodies, whose knowledge has been more 
accurate due to the fact that the people live close to the 
land, to provide for coordination of the project. Every 
prediction made locally regarding the Kivalina situation by the 
elders and local community members has come to pass.
    Second, consideration should be made for the Army Corps of 
Engineers to be designated new responsibilities to take the 
lead in addressing the issues of relocating the village of 
Kivalina in consultation with the Native Village of Kivalina as 
part of their trust responsibilities to the tribe. No agency 
has been identified to take the lead in the Kivalina Relocation 
Project and no discussions have taken place on a continuous 
basis. Because of the erosion problems that we are facing 
today, the Relocation Project discussions have come to a stop.
    Third, since no real studies have ever been done on 
permafrost and being that Alaska is 70 percent wetland, study 
plans need to be devised to monitor the permafrost condition in 
Arctic Alaska. Teck Cominco Red Dog Mine has been monitoring 
the temperature of the permafrost in the Red Dog mine area that 
shows warming temperatures of the permafrost. With the land 
slides now occurring inland, this leaves a question wide open 
for the residents of Kivalina who wish to move inland to higher 
ground as to just how safe any area is in Alaska.
    And fourth, response to Kivalina's situation has been 
piece-mealed so badly that no one seems to know what to do. An 
inter-agency committee should be formed to address erosion in 
Alaska given the fact that arctic conditions seem to be 
deteriorating with rising sea levels and warmer temperatures. 
According to a report made recently to the Alaska Climate 
Impact Assessment Commission by the National Fish and Wildlife 
Service's Jim Dau, there are more slumps, which are also called 
sinkholes by others, than he has ever seen before. Being that 
Alaska is 70 percent wetland, a committee would be appropriate 
to address the many problems associated with the warming 
climate.
    Senator Stevens. Thank you, Ms. Swan.
    Madam Chairman, we are now going to hear from Stanley Tom, 
who is the Tribal Administrator for the Newtok Traditional 
Council. Tom also serves as a Bureau of Indian Affairs Housing 
Improvement Coordinator. He has held various other positions 
within Newtok's local government, including terms as President 
of the Traditional Council, member of the school board, and 
General Manager of the Newtok Traditional Commission and Mayor 
of the city.
    Thank you very much.

STATEMENT OF STANLEY TOM,\1\ TRIBAL ADMINISTRATOR OF THE NEWTOK 
     TRADITIONAL COUNCIL, NATIVE VILLAGE OF NEWTOK, ALASKA

    Mr. Tom. Thank you for inviting me here. I have some copies 
of my testimony if you want to have a copy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tom with attachments appears in 
the Appendix on page 68.
---------------------------------------------------------------------------
    Senator Landrieu. Thank you.
    Senator Stevens. Thank you, sir.
    Mr. Tom. I am Stanley Tom. I am the Tribal Administrator 
for the Newtok Traditional Council.
    My village is located in Western Alaska, about 92 air 
miles, in the Bering and Chukchi Seas area. We are one of the 
four villages identified as being in imminent threat from 
flooding and erosion.
    There is three things happening here in Newtok: Flooding, 
erosion, and sinking of the village because we are sitting on 
the permafrost. We are making plans to relocate our village.
    The village protection is not an option because they did 
try to stop the erosion with a protection and it did not work 
out. There is no permanent cost-effective way to remain in the 
current village right now.
    My points today are the problem with the severe erosion 
that cost my village and what my village has accomplished, we 
are working with the Newtok Planning Group, and the challenges 
we are facing with our work plan.
    In the picture, you can see the erosion here. Back in 1983 
we took a picture of the aerial. You can see how much we lost. 
Back in 1996, it cut off the river and it still is causing 
erosion.
    We had hired ASCG to try to show the Federal and State 
agency how much it was going to have--and we used a 1954 map to 
indicate the erosion, and we had lost about 3,600 feet. We lost 
the barge landing, the old dump site, and the nearest one that 
will be impacted will be like within 3 to 4 years. We did use 
between 2012 and 2017, but that is a conservative figure we 
used.
    We got this drill rig that fell off in the river. You can 
see the picture there. Last year you can see the gap there. We 
lost quite a bit of land just last year. And we had lost like 
about 80 feet just this summer.
    The new village site that we selected is out on Nelson 
Island. It is nine miles from the village and it is on Nelson 
Island that we selected. We call it Mertarvik.
    Back in 1996, we had a land exchange and Gale Norton signed 
an agreement and we own the surface and subsurface rights in 
the new village site.
    In 2004, we lost a lot of erosion. We lost quite a bit. You 
can see the picture, the map of the village there. You can see 
how much we lost. We are in a flood-prone area. This is a 
really low land, and you can see the picture that the flooded 
area before it happened. You can see that we are surrounded by 
the water.
    These houses, we have got three houses that are really bad. 
They are in imminent danger and--the State gave us a piece of 
equipment that we can purchase and I am going to try to move 
these three houses away from this flood-prone area.
    The YKC did a health assessment and our sanitation 
condition in Newtok is grossly inadequate for public health 
protection. Our kids are hospitalized, 20 percent of them are 
going, they are hospitalized with a pneumonia in our villages 
because we are lacking water in our village. We are still doing 
honey bucket in the village. When we have a high water, that 
honey bucket debris goes into our village area. It scatters.
    Right now our barge landing is gone. We do not have the 
barge landing right now. We are suspended delivering materials 
to the village site, the existing site. The barge landing, 
actually the fuel barge came into Newtok and they got stuck for 
3 days. And now they are afraid to go into our river because 
the river has no current.
    The tank farms are obsolete. You can see the tank farms 
here. They are corroding away. They are tilting. They are 
really in a bad state. The Commission suspended us from getting 
any funding in our existing village right now. They do not want 
to upgrade anything, any facilities. Our power companies are 
deteriorating. But they are trying to keep the generator 
running.
    We have a landfill problem, too. This river is drying up. 
It is getting shallower. And our trash is piling up in the 
village because it is across the river and it is a real big 
problem.
    Newtok Planning Group has been helping us since 2006. They 
did help us to fill out EDA money, and that is the barge 
landing for the new village site. DOT put in $200,000 so we 
have $1 million to build a barge landing in the new village 
site that we selected.
    We have a Village Safe Water Preparedness Committee for the 
land/water/sewer system in the new village site. You can see 
the map there, this is a rough draft that they made for us.
    The Commission gave us $30,000 to do a community layout to 
pinpoint where the school will be, and the post office. We are 
trying to build the community in the center, the public 
facilities in the center of the village.
    The Village Safe Water is doing a test water well right 
now. We got the drill rig in the new village site and they are 
drilling the new water source. They should start next week, so 
they have the material there.
    Corps of Engineers already did a geotech investigation in 
the village site. They also drilled the barge landing, and the 
roads in the new village site. They are now--we should begin 
the test later on, when they get them done.
    The DOT did put in a wind collection data. They are 
collecting the wind direction right now.
    The challenges are there is no agency right now leading our 
relocation effort. There is no specific funding for the 
relocation, too. We are like getting a few grants from here and 
there but not specifically for the relocation. We need to get 
this money as soon as we can because erosion is coming in 
quickly.
    Our new village site, we call it Mertarvik. It means 
``getting water from the spring.''
    We did build a barge landing, a temporary barge landing, 
for other agencies that they can bring in materials. We have 
three houses right now built, three houses right now in the 
village site. We are done with it. We are almost done with 
these three houses. So we are working hard to move our own 
village as much as we can. Thank you.
    Senator Stevens. Thank you, Mr. Tom. Our next witness is 
Tony Weyiouanna. He is the Village Transportation Planner for 
the Village of Shishmaref, where we were yesterday and provides 
vital transportation links between isolated Shishmaref, and 
other villages. We are pleased to have you with us, Mr. 
Weyiouanna.

STATEMENT OF TONY A. WEYIOUANNA, SR.,\1\ KAWERAK TRANSPORTATION 
PLANNER AND TECHNICAL STAFF ASSISTANT TO THE SHISHMAREF EROSION 
          AND RELOCATION COALITION, SHISHMAREF, ALASKA

    Mr. Weyiouanna. Madam Chairman, Senator Stevens, first of 
all, I would like to thank you for this opportunity to testify 
before you today to voice my concerns regarding climate change, 
global warming, and its effect on my people and home, 
Shishmaref.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Weyiouanna with attachments 
appears in the Appendix on page 86.
---------------------------------------------------------------------------
    My name is Tony A. Weyiouanna, Sr., from Shishmaref, 
Alaska. I am married to my wife, Fannie. We have four children, 
three boys and one girl.
    Currently, I am working for Kawerak Transportation Program, 
providing technical assistance to the Shishmaref Erosion and 
Relocation Coalition to move the community of Shishmaref onto a 
safe site on the mainland selected by our community.
    As a past time activity, my family owns a small kennel of 
dogs for mushing along the coast of Shishmaref, reminiscing of 
times gone by and enjoying the unique lifestyle of the people 
of Shishmaref.
    In Shishmaref, we have continued to live our subsistence 
life style, passed on to us from generation to generation for 
the past 4,000 years. The yearly spring hunt is our main season 
of hunting for our winter supply of seal oil and dried wheat, 
which is our main staple of our diet. The spring hunting season 
of the past 20 years has been shorter due to the climatic 
weather changes and global warming. Due to the unusually thin 
ice this past spring, one of our young local hunters lost his 
life, which has not occurred in our community in my lifetime.
    Due to the tragedy, our hunters had to wait for the ice to 
break up to use the boats for our hunting, which is a 
relatively safer transportation mode for our hunting. By the 
time hunters caught their catch, it was too hot to make the 
drying and preservation of seal oil, resulting in families 
losing a majority of their catch due to spoilage from the 
unusually hot weather.
    Climate change and global warming has caused extensive 
flooding and erosion in my community, making my family and my 
people feel unsafe on our island, especially in fall, due to 
the eroding beachfront. Every year, we dread the coming of the 
fall storms, hoping for a peaceful freeze. Help is desperately 
needed for communities requesting financial assistance to 
relocate and to protect communities from flooding and erosion.
    We recommend the following projects to help move the 
Shishmaref Relocation Project forward: One, that funding to the 
Shishmaref Erosion and Relocation Coalition for administrative 
capacity building, comprehensive relocation planning, and 
funding of our office to ensure that the relocation of our 
community is completed in the most cost effective, efficient, 
and suited for the traditional values of our community.
    Two, authorize and appropriate $30 million in the coming 
year's appropriations budget for the complete construction of a 
21-mile road from Tin Creek to Ear Mountain, a rock and gravel 
source. The Alaska Department of Transportation has started the 
process of the reconnaissance study for the road and has 
targeted the fall of 2008 for the study completion.
    Also, within this part of the project is getting the 
airport wind study started and the development of the new 
airport master plan for the new site.
    Three, continue seawall funding to the Army Corps of 
Engineers, who has identified an additional $25 million needed 
to complete the recommended 3,000 feet of rip rap seawall.
    Four, authorize and appropriate $5 million for the 
construction of emergency evacuation shelter on the mainland at 
Tin Creek for the community of Shishmaref.
    Five, that Congress authorizes the National Park Service to 
dedicate the public roadway easement for an access corridor 
across the Bering Land Bridge to provide access to Ear 
Mountain, the gravel source. An alternative solution is to move 
the Bering Land Bridge corridor south on the other side of Ear 
Mountain.
    Six, a couple of other things I want to mention. One is 
that the Native Village of Shishmaref is a federally recognized 
tribe formed under the Indian Reorganization Act of 1934. The 
Native Village of Shishmaref also seeks to improve the local 
social, economic education of culture and political conditions 
within our community.
    Seven, in addition, Kawerak is the recognized regional non-
profit tribal entity established to serve the Native Villages 
in the Bering Strait region and is currently compacting their 
Federal funds directly from Washington and has the expertise to 
provide assistance to Shishmaref.
    Eight, we recommend that consideration be made to amend the 
Denali Commission Charter to include a department with the 
funding mechanism to take the lead in providing assistance to 
communities needing relocation and flooding assistance. One 
possibility is directing the Commission to work within an 
agency such as the Corps of Engineers as a lead agency on the 
Federal side and a State agency to assist, selected by the 
governor.
    Nine, we value the working relationships that we have 
developed with the Congressional and State representatives 
agencies and look forward to the continued progress of 
relocating our community, with your continued support.
    In closing, we are a federally recognized tribe asking for 
your help to save our unique traditional culture of our 
community. We ask that funding be allocated to move our 
community. Thank you.
    Senator Stevens. Thank you very much.
    Our last witness, Madam Chairman, is Steve Ivanoff from the 
Village of Unalakleet. He is the Village Transportation 
Planner. He is also the Recreation Director of the Bering 
Straits School District and is a self-employed fisherman.

STATEMENT OF STEVE IVANOFF,\1\ VILLAGE TRANSPORTATION PLANNER, 
                       UNALAKLEET, ALASKA

    Mr. Ivanoff. Thank you, Senator. Welcome to our great 
State, Senator Landrieu and staff members. Nice to have you 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ivanoff appears in the Appendix 
on page 135.
---------------------------------------------------------------------------
    I am Steve Ivanoff from Unalakleet, lifelong resident, and 
will be speaking to you today as a representative of the 
Eastern Norton Sound, an area that has felt the effect of 
increasing fall storms. Thank you for this opportunity to 
testify on the flood and erosion problems we have along the 
Western Alaskan coast. All of our villages in our Bering 
Straits region are situated along the coast with a handful 
experiencing erosion in and around the communities.
    Unalakleet is 400 miles West of Anchorage. It is a location 
that was built because of quick and easy access to the many 
subsistence activities that it has to offer. It sits on a sand 
spit between the river and Norton Sound and has been in 
existence for over 2,000 years. The population is approaching 
800 with Native population consisting of the Inupiat, Yupik, 
and Athabascan Indians, of which my children are all three, 
along with Irish, Russian, and Norwegian. Kind of like a 
melting hub of the area.
    It is classified as a regional sub-hub, serving mail and 
freighting services for itself and four other villages. The 
Bering Straits School District central offices are located in 
Unalakleet, serving 15 villages. We have a sub-regional clinic 
that provides service in Unalakleet and four other villages. 
Commercial fishing was our primary source of income, but we are 
now getting into the service providing arena.
    We had a military Air Force Base in Unalakleet for over two 
decades. We built a 6,000 foot runway, which is being renovated 
right now, as we speak. And we were a site for White Alice 
station and the FAA, and had many groups of environmental haz-
mat cleanups coming through our area and are in the process of 
wrapping that up.
    Flooding. The Norton Sound area went 29 years without a 
flood, from 1974 until 2003. We then had three in a row, having 
disaster declarations in 2003, 2004, and 2005. The next 
village, 38 miles north of us, Shaktoolik, becomes an island 
during these floods with no means of evacuation. They have a 
population of roughly 250 residents and are all on watch during 
these floods, hoping that the tides reverse before the ocean 
consumes them.
    Residents in well-developed States can jump into a car and 
leave these flood-prone areas. They cannot. They have just got 
to sit and wait. I had friends of mine that flew a plane the 
next morning, after the water had subsided. And for five miles, 
all they saw was water. Then off in the distance, in the 
window, they saw Shaktoolik appear. It was completely 
surrounded by water.
    Our floods occur during the late evening, early morning 
hours, when it is dark and too dangerous to navigate any type 
of boats. They need an evacuation route, as their airport, too, 
is flood-prone. I am not sure I included it in the photos, but 
the last page has two photos of Shaktoolik.
    The past problems we have had with the flood declarations 
is that the time schedule to assess the damage does not fit our 
freeze case. When it floods, it freezes as the flood is 
occurring. So the ice builds up and we cannot assess the damage 
until the springtime. We have asked for extensions and they 
have given it to us, but it is just another hurdle for us to 
have to go through.
    Another one is they are late to award the funds. In the 
flood of 2003, the repairs to the gabion wall did not happen 
until--or did not finish until the day before the next storm in 
2004.
    They had notices out in the stores and the Post Offices for 
residents to apply for $5,000 assistance for the flood. But 
when you had 50 signs in the store, you just do not take your 
time every day to go there. And the time flew by with the 
residents not knowing that the signs were there and nobody in 
our village got any of that funding that was available to them, 
because we did not know of the print that was in a corner in 
the Post Office and store.
    Erosion. Erosion in our community has occurred in several 
sections within the city boundaries. The greatest erosion 
occurs at the mouth of the river. Protection was constructed in 
2000, a gabion wall, by NRCS in the amount of $1 million. This 
1,400-foot wall was funded by NRCS, and is shown in the 
attached photos.
    The timing of the construction of the wall could not have 
come at a better time, protecting a church, a fish processing 
plant, a store, a hotel, a restaurant, the Post Office, teacher 
housing, school district storage fuel tanks, a small engines 
repair shop, and several homes. This southern section of the 
town is the heart of the village and would have seen 
substantial damage without the wall.
    We felt the gabion wall would have a 5-year life span and 
give us enough time to work towards a permanent fix. The wire 
coating is coming off and is now rusting and quickly 
deteriorating. Repair work must be done following each storm 
and back fill replaced, as in Kivalina.
    The Corps of Engineers are in the final stages of a design 
for a rip rap wall that would put armor rock along the full 
length of the gabion wall. We have had several public meetings 
reviewing the design and are very pleased with their 
recommendation. The rip rap wall is the most feasible option 
over a 50-year period, having the lowest maintenance cost. Once 
the design is complete, we will seek funding for this project 
and are hoping for your assistance.
    The State DOT is completing an erosion design for a rip rap 
wall along the beach adjacent to the DOT property and airport. 
This project is along the Northern end of the community and 
scheduled to go out to bid this winter.
    DOT is also elevating the evacuation road and will complete 
this project next summer. In the past storms of 2004 and 2005, 
after the flood of 2003, our residents--our evacuation road 
became completely submerged in the flood. So our residents 
said, could we put markers on the road so when we leave the 
village we will know where the road is. That is being taken 
care of by DOT, but we had to wait several years for this to 
happen and it should not have to take that long for an 
evacuation road.
    Our community water source is five miles north of the 
village and the piping runs alongside of the beach. Erosion 
threatened this line, so the Village Safe Water is working on a 
design to construct a new line along the hillside, well away 
from the beach. This is expected to start within 2 years.
    In Unalakleet, we are fortunate to have hills a short 
distance away that we are now migrating into. More of our 
residents are now building homes in these hills, even if it 
means packing their water, because it offers a long-term safer 
area. Some of the homes have wells and septic systems, but not 
all. We do need to build access roads to speed up the process 
to encourage more development in the hills.
    The rip rap wall will protect the heart of our village, as 
it will protect our structures that are needed to function 
until we can make the transition into the hillside.
    Shaktoolik was a village situated eight miles east of the 
village until the Bureau of Indian Affairs built a school near 
the beach to cut down on mobilization costs, forcing the 
residents to migrate to what is now called the old site. My 
father was born in the site upriver. His father built 54-foot 
schooners up there because of the timber. But they were in a 
safe, flood-free area. The Bureau of Indian Affairs built the 
school, forcing all the people to move down to the coast so 
their kids can attend school.
    Senator Landrieu. Why did they build the school there?
    Mr. Ivanoff. To cut down on mobilization costs. The site 
was eight miles upriver and the Bureau of Indian Affairs built 
the school, even though there were no homes there, forcing the 
village to move down.
    Following the flood of 1974, the village moved two miles 
further north to higher ground, where it is now located. The 
natural barrier that had protected them for nearly 30 years has 
eroded from the three floods and is no longer sufficient to 
provide for their safety.
    St. Michael, 54 miles south of Unalakleet, has also had 
erosion and may need to move several homes in the near future. 
Fortunately for them, higher ground is a short distance away.
    There are funds available for reactive measures, but not 
nearly enough for proactive measures, as you had stated. In the 
news, we hear about the funds of the Gravina Bridge being in 
limbo. I recommend we funnel these and direct other necessary 
funds towards flooding and erosion. How can anyone argue with 
providing safety for our residents that are in harms way?
    A number of Alaska Native Villages that are either coastal 
communities or situated along rivers, as Newtok, or streams 
continue to experience significant loss of land and property 
and significant threat to life. These events are increasing not 
only in number but also in severity. Some of these villages do 
not have the internal capacity and funds to handle the 
additional burden of interacting with the various State and 
Federal agencies.
    I believe the State needs to get more involved and send 
their administrators to the most affected communities to see 
firsthand the dire situations we face. The State DOT has made 
some improvements for roads and airport protection, but I feel 
the State needs to get more involved with our erosion problems 
along residential areas.
    One problem I have with the DOT matrix system for roads is 
that it does not give enough merit to life and safety flood 
issues. This should be above and beyond all other needs. The 
projects, such as an evacuation road in Shaktoolik, does not 
score well under their system. Yes, they are small in 
population, but our Federal Government can take some credit for 
putting them in harms way with the forced location of the 
1930s.
    I have served on the Denali Transportation Committee since 
it was formed 2 years ago and am very pleased with their work. 
We had the committee travel to our villages this spring. That 
gave them an understanding about the threats that we have to 
live with. For them to walk along the massive piles of Yukon 
logs that are washed up against the homes in Shaktoolik was 
definitely an eye opener.
    Those are the photos on the last page that I gave you.
    We are also pleased with the emissions bill in Congress 
that could direct assistance for this in the future, and would 
be willing to speak in support of it.
    The Federal and State agencies need to assess the flood and 
erosions in the communities that have immediate needs. We 
support the GAO recommendation that a Federal agency be 
appointed to lead a work group consisting of various Federal 
and State agencies to address the flood and erosion issues in 
rural Alaska. Here we are still waiting for that to happen.
    We also recommend that rural Alaskans be on the work group 
to make recommendations to Congress and the State of Alaska to 
streamline the process so that projects can be constructed 
sooner rather than later. We, in our region, know the 
communities in dire situations and are available to make 
recommendations for site visits and assessments. This work 
group could be within the Denali Commission and led by the 
Corps of Engineers because of their expertise and understanding 
of the issues at hand.
    If there is a work group now, we have not heard of it 
because we have not been invited to any of these and we are one 
of the nine villages mentioned in the GAO report. We have heard 
of meetings that are being held here in Anchorage but there has 
been no correspondence with Unalakleet.
    We appreciate our Washington delegation and their staff 
making trips to our problematic areas. We now need to get the 
State administrators to educate themselves in this area. Do we 
have an obligation to provide for the safety and protection of 
our people living under these conditions? They have fallen 
victim to circumstances that no one saw coming so quickly. Just 
as we heard of the warnings prior to the hurricanes in New 
Orleans, this is the warning we are giving, like the canary in 
the mine or the elephant in the tsunami. This is a warning, and 
we are trying to get that message out.
    I appreciate the discussion on Section 117, Senator. Our 
design for the erosion wall in Unalakleet is nearly complete 
and we are told now it is up to us to try to look for funds for 
the project. We do not really have the resources to interact, 
to go to Washington, DC and lobby for this project. How can--we 
heard of them beating up the earmark process in DC. If this is 
our only means and ways of acquiring a project such as this, it 
is hard for us because the process under the discussion that I 
heard earlier, Senator, does not allow for them to go to you to 
advocate for us for that project. But I appreciate the 
discussion you had there.
    Global warming and the wildlife is endangered. We heard of 
polar bears. We heard of walruses. And I am sure there is going 
to be funds directed to address those issues. But we have whole 
tribes that have been there for thousands of years that are in 
danger. I mean, we could lose a whole tribe in a storm of a 10 
percent higher magnitude than what we had in 2005.
    In the developed States, they are fortunate. They have the 
option--that is the key word, option--they have an option to 
leave their community in the event of a storm. Some of our 
villages, like Kivalina, Shishmaref, or Shaktoolik, they do not 
have that option.
    Senator Landrieu, I appreciate your comments on Senator 
Stevens at the beginning. And you are right. If I had someone 
that I would like to go to bat for me, it would be him.
    In conclusion, I invite you to visit our areas and see the 
threats we face. Come to Unalakleet. You have already been to 
Shishmaref. I promise we will make it a pleasant trip for you 
and one that would be worthwhile. Thank you very much.
    Senator Landrieu. Thank you all for your testimony. It 
occurred to me that is an extraordinary amount of coastline and 
the significant challenges to not only these villages but the 
other coastal communities in Alaska. It occurs to me that much 
stronger master planning by Senator Stevens' heroic efforts to 
bring specific earmarks and dollars and new authorizations have 
been, over time, somewhat successful. But when you look at the 
challenges, particularly those brought on by our awareness and 
understanding of the immediate threat of global warming and the 
sea-wide temperature changes and ice melting, it seems to me 
that we probably have to have a paradigm shift.
    What could the State of Alaska be doing more to assist you, 
assuming that whatever we do is going to be in combination with 
Federal, State and local and using faith-based and private 
sector, as well.
    But my question is, specifically, if each of you would take 
a minute, what could the State of Alaska be doing more to 
either help that you could suggest to us? And then I'm going to 
ask you what you all thought about the Denali Commission.
    Go ahead, Ms. Swan.
    Ms. Swan. I work with the Native Village of Kivalina. My 
experience with the State has been almost--well, we had almost 
no communication with the State because they work with the 
Borough governments and a lot of the decisions that are made 
are made outside the village and without much input from the 
local governing bodies. In particular, the seawall that was 
built was then developed without consultation with any of the 
leaders in Kivalina.
    The State needs to communicate directly with the local 
communities who have the knowledge base to make better 
decisions than what have been made for years.
    Senator Landrieu. Mr. Tom.
    Ms. Swan. As for the Denali Commission----
    Senator Landrieu. I am sorry, let them answer as to the 
State. Just the State, if the State could do more to help in 
your situation, what would it be? Would it be technical 
assistance or coordination or consultation, more money? In 
terms of the coastal erosion issues, what could the State do 
more to help?
    Mr. Tom. I would like to see the Denali Commission help us 
out. They have more funding available. And the State is trying 
to help us right now, but still, it is not enough. There is no 
specific relocation funding and that is a big problem right 
now.
    Mr. Weyiouanna. With respect to the State guidelines for 
assistance, they are more targeted to helping recognize city 
governments. Most of our local governments within our 
community, the most effective ones, are the federally 
recognized tribes. We need to figure out how to work more 
closely with the State, especially on flooding and erosion, 
fire disaster, and earthquake disaster. We need one agency that 
could provide all the assistance in getting funding for the 
communities to help with the problems they have due to 
disaster. We need some kind of funding mechanism on the State 
side, whether or not it is just State funds or in combination 
with the Federal funding. We need some kind of coordinating 
agency to take the lead.
    Mr. Ivanoff. As Mr. Weyiouanna stated, the State does not 
recognize the tribes officially. And most of us do work with 
the tribes or for the tribes. I do not know if I am going to 
get reimbursed for this trip. I am here on my own dime right 
now, but I will do paperwork to try to submit it. The State 
does not have any kind of funds to allow participants to come 
to forums such as this.
    Senator Landrieu. Well, let me ask my question this way, 
and maybe the Senator can help clarify for me. Does the State 
of Alaska have any kind of coordinating council for coastal 
communities that are not tribes or natives? Because there are 
many coastal communities of those kind. Is there any kind of 
coastal State agency that tries to help with those coastal-
related issues? You have the Corps at the Federal level.
    No coastal places, does the State of Alaska have a coastal 
agency?
    Mr. Weyiouanna. Madam Senator, the State has--we have 
worked with Christie Miller in the past. But it is under DCCED 
but they are not very active as far as reaching out and 
educating themselves as far as saying we need to get the 
administrators out to the communities to get that communication 
going. I do not know who in the State----
    Senator Landrieu. Well, let me ask you this and then I will 
turn it over to Senator Stevens. Are you all clear representing 
the villages that you are representing, and I understand there 
are more than just the four that you all are testifying on 
behalf of here.
    But if you had a relocation plan, if your village says this 
is not going to work, we are going to have to relocate, do you 
have an agency to take your plan to talk with them about the 
actual reality of what it would take to relocate? Any one 
agency or do you have to go to a variety of agencies?
    Start with you, Ms. Swan. Is there any agency that you 
could go to?
    Ms. Swan. The Native Village of Kivalina has been working 
mostly with the Army Corps of Engineers. Obviously, they have a 
trust responsibility. I am not aware of any other agency within 
the State.
    We have had very little communication with the State about 
our issues in Kivalina.
    Senator Landrieu. Has Kivalina decided to stay or relocate?
    Ms. Swan. The people wanted to move, yes.
    Senator Landrieu. And right now there is no Federal agency 
for you to coordinate that move with?
    Ms. Swan. No.
    Senator Landrieu. How many are planning to move?
    Ms. Swan. About 380.
    Senator Landrieu. How about you, Mr. Tom?
    Mr. Tom. There is 433. The State census says 350 but it is 
outdated.
    Senator Landrieu. And it is how many?
    Mr. Tom. About 430.
    Senator Landrieu. And you decided to move?
    Mr. Tom. Yes, we have decided. We are already processing 
our own relocation effort without the help of the Federal and 
State agencies. We are not moved but we are lacking specific 
grants for the relocation effort.
    Senator Landrieu. Mr. Weyiouanna, have you decided to stay 
or move?
    Mr. Weyiouanna. In 2002, the community of Shishmaref had a 
community-wide vote sponsored by the City of Shishmaref asking 
the question whether you would like to move or not. The 
majority of the voters voted to move. Then on December 12, 
2006, the community had a public meeting, reaffirmed the 
selection of Tin Creek as the relocation site.
    Mr. Ivanoff. In Unalakleet, it is kind of like a voluntary 
move. We have people migrating into the hills. Like I said, 
there is at least a dozen homes up on the hillside now and I 
have three brothers building homes up there next year. And they 
are doing it out of their own pocket, their own dime, no 
coordination with the State.
    The Corps of Engineers has been the most active agency that 
has been involved with the flood issues. They have made many 
trips out to Unalakleet, and I have hosted them many times. The 
State has not been involved in the process in the past. I am 
hoping they can become part of it in the future because it 
would be nice that this erosion project in Unalakleet does not 
have to be 100 percent funded by the Federal Government. It 
would be nice if the State could kick in a few million to help 
with the process.
    Senator Landrieu. Well, I am going to turn it over now to 
Senator Stevens. I think this question is going to become more 
and more real to many communities throughout the United States. 
We are going through those questions now. What communities are 
going to stay, what communities need to move. This is happening 
in many coastal areas.
    But it is important that when those decisions are made, 
which is very tough and can be very traumatic to decide the 
course for a village or a community to move, there should be a 
master plan that people can count on for 5 years or 10 years.
    But otherwise, we are at risk of losing these villages just 
by lack of funding and lack of organized effort that is laid 
out in the future.
    Mr. Ivanoff. If I may, Madam Chairman, Senator Stevens, I 
mean.
    One of the villages I work with is Shaktoolik, and they 
are--like I said, they become an island. They need an 
evacuation road. And like I said, their natural barrier between 
them and the ocean has seriously eroded in the last three 
storms. And they are in the process--mindset, of discussions of 
relocation.
    And with this continued trend, they have no choice. They 
have to relocate because they do not have the resources and the 
State is not involved in working with them to figure out a 
long-term solution. It is kind of like the federally recognized 
tribe is the only agency right now that we are working with.
    Senator Landrieu. Senator Stevens.
    Senator Stevens. Thank you, Senator Landrieu.
    If you look at what you have just given us, I have gone 
over it. You want, for Unalakleet, $1 million a year until the 
move is finished. You have asked for $30 million plus $25 
million plus another $5 million for the move, so $61 million. 
Was that your figures, Mr. Weyiouanna?
    Mr. Weyiouanna. I think so. Sounds right.
    Mr. Ivanoff. You can send it my way.
    Mr. Weyiouanna. I was just looking at it.
    Senator Stevens. $61.1 million just for this year is what 
you have asked for, as I understand it.
    Mr. Weyiouanna. Yes.
    Senator Stevens. The entire budget for the Denali 
Commission this year was $100 million. The request for next 
year is $64 million, $60-some-odd million. Your one village 
request is for the full amount of funding we have been able to 
get for the whole State.
    The problem we have, and Madam Chairman, my friend from 
Louisiana has really put her finger on it. And that is there 
has been no coordination within the State of priorities in this 
request to move. Some of them, as you pointed out, Shaktoolik 
is absolutely isolated now. They should get priority over 
everyone else because they are in absolute danger, as I 
understand it, from another storm.
    Mr. Weyiouanna, you are far ahead of some of the others, 
but very clearly the prospects of each getting--for each of 
these nine villages--somewhere near $70 million in the next 
year is next to impossible.
    The question is how do we stage this money so we get some 
money and start putting it where it is absolutely necessary and 
start the process, the long-term process, of relocation of 
these villages.
    Where will we be able to include all of the coastal 
villages, as I understand it several others have come into the 
category of being endangered now because of the last storm. It 
does seem to me we are going to have to have a State-wide 
constant evaluating the problems and trying to allocate 
resources from both the State and Federal Government to the 
areas that need it first and most.
    It is not there yet, but that is one reason we are holding 
the hearing. I know that is one reason Representative Samuels 
held his hearing yesterday. We are going to have to get 
together and find some way to coordinate the Federal and State 
efforts with the individual villages that are in need of help.
    Mr. Weyiouanna, you are going ahead very quickly, but I am 
not sure that your village is the one that has to move this 
year, is what I am saying. That is one of the problems. If we 
get money, where should it go first? And who is going to 
allocate it? Who is going to coordinate it with the Federal and 
State agencies to make sure that we are--this is a very 
difficult problem. You all ought to be involved in the basic 
decision of where the money is allocated and how it is to be 
spent.
    I really do not have the answers yet. We hope we can get 
the answers out of these hearings. I intend to talk to 
Representative Samuels about his hearings yesterday and see if 
we can work out a Federal-State coordinating group within the 
legislative process if we work together with him on that.
    As much as I really commend all of you for what you are 
doing, I think--I do not know which village it is, but the ones 
that were outlined by the Government Accounting Office as being 
the most threatened, seemed to be the most threatened. But that 
list is 3 years old now. And I do think we have to have a new 
evaluation of those villages that have just come into this 
category of endangered and make sure that we have 
representation from them and conversations we are going to have 
in the next few months, how to start dealing with these 
problems.
    If you have any suggestions, I think you have given us some 
in your statements. I do not want to be offensive, but each 
village is proceeding on the basis that they are going to come 
first. And the demands of each one of them are roughly about 
the same amount, somewhere near $70 million for this year 
alone. That is impossible. Unless we have the request from the 
Federal agencies today, the new rules apply in Congress. We are 
not permitted to come forward and say you want to earmark 
money. In this case, it would be over $100 million for the 
villages alone. It is not possible under our procedures now.
    Senator Landrieu. Can I ask, do the villages--have you all 
ever met together?
    Mr. Ivanoff. Never.
    Senator Landrieu. If you come up with some sort of planning 
process. The reason I say this is we were not doing a very good 
job in Louisiana with planning, I will have to admit. And this 
storm did not catch us by surprise. But it was much worse, not 
just the hurricane, but actually the Corps of Engineers, I used 
to say their legacy was a city underwater and it was a terrible 
tragedy when 80 percent of the city went under either four to 
20 feet of water and we lost 250,000 homes between Louisiana 
and Mississippi. Mississippi from the storm surge, but ours 
from the massive flood that flooded an area greater than New 
Orleans.
    Now we are doing a lot of planning and our cities are 
working together. We have a group called charettes. And every 
town, big and small, all over the Gulf Coast, is in some 
measure undertaking this discussion about what is going to 
happen and what are they going to do in 10 or 20 or 30 years? 
Are they going to move parts of their town? Are they going to 
build 15 feet up?
    And the towns are meeting together and planners have come 
in from literally all over the world to try to help us. And 
perhaps that model could be used here.
    The Federal Government is not paying for all of this, let 
me say. The State is responsible, local--we have parishes. We 
have boroughs, counties, and parishes. The parish level is 
dealing with the State. It is not just the Federal Government. 
But these charettes are planning for the people to make the 
decisions themselves and try to, as Senator Stevens says, to 
come up with cost-effective solutions. Because our taxpayers 
all over the country are demanding that we come up with not the 
most expensive but cost-effective that respects culture and the 
communities that we are dealing with.
    So perhaps you can give some advice to the villages to 
start working together. Like Senator Stevens says, if you can 
help decide, even suggest, who should move first, who should 
move second, etc., kind of a triage or priority decision.
    Senator Stevens. Senator, I am going to meet with the 
governor tomorrow. We have got to wind this up because we are 
both due at another meeting. But the next time I will be home 
will be the week of Thanksgiving. I am going to tell you right 
now, I am going to try to get the governor to agree to call a 
meeting here in Anchorage on November 19 and meet for a couple 
of days, November 19 and 20, to get representatives from each 
one of the villages that is affected. I am going to ask the 
Corps of Engineers to come and join us and FEMA and the State 
agencies. And let's see if we cannot get together and develop 
some priorities and develop some basic requests that we can 
take back to Congress. We will be out of session by then and we 
will be going back into session maybe in December.
    But in any event, we are going to have to find some 
mechanism to get the Office of Management Budget on the Federal 
level to recognize that there is an emergency up here and get 
us some emergency assistance for the 2008 period.
    I noticed today that I am going to ask for that meeting 
here starting on the morning of November 19, Monday and Tuesday 
before Thanksgiving. I am sure the Chairman will help get some 
representation and get letters out to Federal agencies so they 
will come and be here. It is not exactly a great week to travel 
just before Thanksgiving, but we will do it Monday and Tuesday 
so people can get back home in time for Thanksgiving.
    But I do think we have to get some emergency coordination. 
We have to figure out who should we get the money for? If we 
get money this year, where is it going to go? And who is going 
to allocate it? Who is going to supervise it? Who is going to 
coordinate the Federal and State agencies to see that it is 
done. It is apparently required because of the storms that have 
already come. And if we have another storm before then, only 
God knows what we can do.
    The problem with meeting is we do not have any preparation 
for immediate assistance after a disaster right now and I think 
the Federal agencies do their best to respond.
    This is getting to the point now that I feel that there are 
18 villages before the year is out that have similar 
requirements and we need to get prepared and get it planned and 
try to work out what can be done. These villages are working on 
the basis of what you want to have done. Our problem is what 
can we put together to assist you, what is possible within the 
time frame ahead.
    I will not forget you at that time.
    Thank you, Senator Landrieu, for coming. This is a hearing, 
similar to what Representative Samuels had yesterday, I think 
we can put together something if we can find a way to work 
between the Federal agencies and the State agencies to get some 
answers to the requests.
    Senator Landrieu. I want to support Senator Stevens in 
every way. I am not sure that I can be here personally at that 
time, I will check my calendar to see. But I will give the full 
support of my subcommittee and will urge the full Homeland 
Security and Governmental Affairs Committee to make this a 
priority.
    I want to say, I do not keep meaning to refer to Hurricanes 
Katrina and Rita, but it was a real wake up call. Not to 
frighten you, but we lost 2,000 people who drowned in that 
storm. Some of them drowned in their homes. We had children 
drown in the arms of their parents and senior citizens that 
could not swim and drowned in their living rooms.
    It is clear that it is an emergency. And I just hate to see 
that happen to communities here.
    And we could evacuate. But the City of New Orleans 
evacuated, outside of first responders, every living person 
over the course of 2 weeks, every day out of every hospital, 
every senior citizen out of every nursing home. We did not 
evacuate, I guess you know, when we should have, 100,000 out of 
450,000 were left in the city. But over the course of the next 
2 weeks, with the help of the Corps and the Coast Guard, every 
single person was evacuated.
    And today, 2 years later, out of a city of 450,000 only 
200,000 people are back. And 2,100 people basically died in 
that situation.
    So we have a lot of emergencies around the country, and 
Senator Stevens, I do not think I know of one that really 
understands what our people are faced with here. And the 
amounts of resources and coordination that must be brought to 
bear.
    So Senator Stevens and I will stand up against the 
bureaucracy as well as we can.
    I want to thank the Loussac Library and thank all of the 
Federal and State witnesses for coming today.
    Senator Stevens. Mr. Tom.
    Mr. Tom. Newtok has less media attention and we decided to 
move. And no other State Senators ever visit my village. If you 
are able to come to Newtok and see for yourselves, see how we 
are in a hard condition where everything is deteriorating.
    Senator Stevens. I understand. I have been to six of the 
nine but I have not been to your village yet. I will do my 
best, see if we can work that out when I come back.
    Mr. Tom. Thank you.
    Senator Stevens. Thank you all very much.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
